<html>
<title> - ON THE PATH TO GREAT EDUCATIONAL RESULTS FOR THE DISTRICT'S PUBLIC SCHOOLS?</title>
<body><pre>[Senate Hearing 110-474]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-474
 
  ON THE PATH TO GREAT EDUCATIONAL RESULTS FOR THE DISTRICT'S PUBLIC 
                                SCHOOLS?

=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html




                     U.S. GOVERNMENT PRINTING OFFICE

41-459 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
               Thomas Richards, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
                 David Cole, Professional Staff Member
                     Jessica Nagasako, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1

                               WITNESSES
                         Friday, March 14, 2008

Cornelia M. Ashby, Director, Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office.........     2
Michelle Rhee, Chancellor, District of Columbia Public Schools...     4
Victor Reinoso, Deputy Mayor for Education, Office of the Deputy 
  Mayor for Education, District of Columbia......................     8
Deborah A. Gist, State Superintendent of Education, Office of the 
  State Superintendent of Education, District of Columbia........    11
Allen Y. Lew, Executive Director, Office of Public Education 
  Facilities Modernization, District of Columbia Public School...    13
Jane Hannaway, Ph.D., Director, Education Policy Center, Urban 
  Institute......................................................    31
John W. Hill, Chief Executive Officer, Federal City Council......    33

                     Alphabetical List of Witnesses

Ashby, Cornelia M.:
    Testimony....................................................     2
    Prepared statement...........................................    41
Gist, Deborah A.:
    Testimony....................................................    11
    Prepared statement...........................................    82
Hannaway, Jane, Ph.D.:
    Testimony....................................................    31
    Prepared statement...........................................    95
Hill, John W.:
    Testimony....................................................    33
    Prepared statement...........................................   100
Lew, Allen Y.:
    Testimony....................................................    13
    Prepared statement...........................................    88
Reinoso, Victor:
    Testimony....................................................     8
    Prepared statement...........................................    73
Rhee, Michelle:
    Testimony....................................................     4
    Prepared statement...........................................    66

                                APPENDIX

Robert Vinson Brannum, Chairman, Education Committee, DC 
  Federation of Civic Associations, Inc., prepared statement.....   107
Hon. Paul Strauss, U.S. Senator, District of Columbia (Shadow), 
  prepared statement.............................................   110
Mary Spencer, Committee Chair for DC ACORN School Modernization 
  Committee (ASMOC), prepared statement..........................   114
Gina Arlotto, Co-founder of Save Our School, prepared statement..   115
Background.......................................................   117
Post-Hearing Questions for the Record Submitted from:
    Ms. Rhee.....................................................   124
    Mr. Reinoso..................................................   128
    Ms. Gist.....................................................   131


                    ON THE PATH TO GREAT EDUCATIONAL



                       RESULTS FOR THE DISTRICT'S



                            PUBLIC SCHOOLS?

                              ----------                              


                         FRIDAY, MARCH 14, 2008

                                   U.S. Senate,    
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    Good morning and welcome to all of you. I look upon this as 
a very important hearing, and thank you for joining us today 
for the second in a series of hearings on the District of 
Columbia Public School system reforms. I know you all have been 
working diligently and hard, and I want to commend all of you 
for the improvements thus far. I look forward to hearing more 
about the progress you have made and your further intentions.
    As you may know, before being elected to Congress, I was a 
teacher and a principal. I was in the school system in Hawaii. 
I know firsthand the challenges facing any educational system, 
the care it takes to bring about reforms, the needed investment 
in clear strategic plans, and the critical importance of 
providing quality education to underserved populations.
    You have made many tough decisions already and taken 
noteworthy steps, but expectations are high. A number of 
accountability measures have been put into place including 
weekly meetings at all levels of DC Government, which hold 
senior level staff and officials accountable for their efforts.
    Given how critical this issue is for DC children, I asked 
the Government Accountability Office to review the progress of 
the reforms and make recommendations for improvements. The 
short-term study, which we will hear the results of today, 
confirms significant improvements in the system and fundamental 
changes, such as management restructuring, reviewing teacher 
and employee standards, development of strategic plans, and 
addressing crumbling facilities.
    To guide these reforms and build upon these efforts, one of 
GAO's recommendations is that a system-wide strategic plan 
should be developed. I agree with this finding. For all major 
transformational reform efforts, it is important that there be 
a strategy for the future.
    The strategic plan should be a transparent, living document 
focused on the students with a clear vision for all DC agencies 
to understand their roles and their responsibilities.
    We are looking at a fast-moving train. Every day new 
changes occur in the school system, testing the hope and 
expectations of parents, teachers, the community, and, most 
importantly, the children and the students.
    I hope today we can gain a better understanding of the 
progress made and gain a greater understanding of future plans, 
and so I look forward to all of our witnesses this morning.
    Our first panel is Cornelia Ashby, who is the Director of 
Education, Workforce, and Income Security Issues, Government 
Accountability Office; Michelle Rhee, Chancellor of the DC 
Public Schools; Victor Reinoso, Deputy Mayor for Education, 
District of Columbia; Deborah Gist, DC State Superintendent of 
Education; and Allen Lew, Executive Director of the Office of 
Public Education Facilities Modernization.
    Our Committee rules require that all witnesses testify 
under oath. Therefore, I ask each of you to stand and please 
raise your right hand. Do you solemnly swear that the testimony 
you are about to give the Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Ms. Ashby. I do.
    Ms. Rhee. I do.
    Mr. Reinoso. I do.
    Ms. Gist. I do.
    Mr. Lew. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Welcome again. Before we begin, I want you all to know that 
although your oral statement is limited to 5 minutes, your full 
statements will be included in the record.
    So, Ms. Ashby, would you please proceed with your 
statement?

    TESTIMONY OF CORNELIA M. ASHBY,\1\ DIRECTOR, EDUCATION, 
    WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Ashby. Mr. Chairman, I am pleased to be here this 
morning to present information on the District's progress in 
reforming its public school system. Early reform efforts have 
focused largely on broad critical management issues and other 
activities that provide the foundation for long-term 
improvement. In addition to developing and implementing 
transitional plans to establish the new governance structure 
required by the 2007 Reform Act, early reform efforts have 
included human capital, data, school consolidation, facilities, 
Federal grants management, and some performance and strategic 
planning initiatives, as well as setting academic priorities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ashby appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    With respect to human capital, new personnel rules and new 
systems for evaluating the performance of central office 
employees and employees of the State Superintendent's Office 
were developed. According to DC Public Schools officials, as of 
January, all staff had received performance evaluations based 
on District Government-wide competencies. Officials at the 
State Superintendent's Office told us that individual 
performance plans had been developed for all staff, and 
performance evaluations based on those plans will begin later 
this month.
    Both the State Superintendent's Office and DCPS are working 
to improve their data systems to track and monitor the 
performance of students, teachers, and schools. The 
Superintendent's Office is building a longitudinal database. 
The database is expected to be fully operational by 2012.
    DCPS is consolidating its data systems, eliminating 
duplicate information, and verifying data accuracy. DCPS 
officials told us they expect the new student data management 
system to be operational by February 2009. In addition, DCPS is 
moving from a paper-based to an electronic personnel data 
system.
    Steps have also been taken to consolidate schools and set 
academic priorities. This month, DCPS finalized its school 
consolidation plan, which identifies over 20 schools for 
closure in an effort to provide more resources to the remaining 
schools.
    In the area of academic achievement, DCPS has set academic 
priorities for the current school year and is in the process of 
establishing longer-term priorities DCPS is currently working 
on a 5-year academic plan.
    To address the backlog of work orders and ongoing 
facilities needs, the new Facilities Office made repairs to 
over 70 schools last summer and in early fall. It also assessed 
the condition of heating and air conditioning systems in all 
District schools. According to the Facilities Director, repairs 
were made to school heating systems, and all schools had heat 
by October 15. In addition, he told us all schools with central 
air conditioning received upgrades, and about 670 new air 
conditioning units were installed. Last fall, the Facilities 
Office also began making improvements to the remaining schools. 
The Facilities Office is revising the DCPS 2006 Master 
Facilities Plan. According to District officials, the revised 
plan, which is to be completed by the end of May, will align 
with the chancellor's academic priorities and school 
consolidation efforts.
    The State superintendent has begun to address long-term 
grant management and No Child Left Behind Act compliance 
deficiencies identified by the U.S. Department of Education. 
For example, to meet the No Child Left Behind State level 
requirements, the State superintendent is establishing a 
process for providing technical assistance to underperforming 
schools. The State superintendent has told us that her office 
has started to develop a strategic plan that will include 
measurable goals and objectives and expects to complete the 
plan this summer.
    The mayor and education officials have also developed a 
performance-based process designed to establish accountability 
for these school reform efforts. As you mentioned, Mr. 
Chairman, the process includes holding weekly meetings to track 
progress and accomplishments across education offices, as well 
as requiring these offices to develop and follow annual 
performance plans. The DC Department of Education has taken 
some steps to coordinate and integrate the various efforts of 
the District education offices. However, it has not developed a 
District-wide strategic education plan.
    While developing a long-term strategic plan takes time, it 
is useful for entities undergoing transformation, such as the 
DC Public School system. A strategic plan and the process of 
developing one helps organizations look across the goals of 
multiple offices and determine whether they are aligned and 
connected or working at cross purposes. By articulating an 
overall mission or vision, a strategic plan helps organizations 
set priorities, implementation strategies, and timelines to 
measure the progress of multiple offices. A long-term strategic 
plan is also an important communication tool, articulating a 
consistent set of goals and marking progress for employees and 
key stakeholders. Given that leadership changes, a strategic 
plan would provide a road map for future District leaders. For 
these reasons, we recommend, as you also mentioned, Mr. 
Chairman, the development of a District-wide education 
strategic plan.
    Mr. Chairman, this completes my prepared statement. I would 
be happy to answer any questions.
    Senator Akaka. Thank you very much, Ms. Ashby. Ms. Rhee.

TESTIMONY OF MICHELLE RHEE,\1\ CHANCELLOR, DISTRICT OF COLUMBIA 
                         PUBLIC SCHOOLS

    Ms. Rhee. Good afternoon, Chairman Akaka. When I last 
testified before you, I said that I would rebuild the public 
school system in Washington, DC. I described plans to overhaul 
flawed data and accountability systems, create a culture of 
individual accountability for student achievement, build strong 
leadership and high-quality teaching in our schools, reform 
special education, and address multiple other areas to increase 
student achievement. As my evaluation of the system has 
deepened over the last 8 months, I have been shocked by the 
profound level of dysfunction under which DCPS has been 
operating. I met high school seniors who want to go to college 
next year but who had just learned about prepositions. I heard 
from teachers who had not been paid for the work they had done 
3 years ago. And I met elementary school students who sent me a 
``wish list'' for their school. They asked if they could have a 
music teacher, a Spanish teacher, a librarian, and other basic 
things for which no children should have to lobby their 
chancellor for.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rhee appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    These are not just anecdotes. What saddens me most is what 
the performance data says about what this system is doing to 
kids. According to our DC-CAS data, 50 of our schools have 
proficiency rates lower than 20 percent in either reading or 
math. This means that four out of five kids in those schools do 
not meet even the most basic level of proficiency. We are 
talking about almost 14,000 children.
    Residents of the District have rightly demanded radical 
change, and we are responding swiftly. In this transitional 
year, we have begun to remove the obstacles that block student 
achievement. We are solving the problems that need to be 
solved, and I look forward to discussing this work with you 
today. However, this system needs more than solving problems 
one at a time. This year we are laying the foundations for my 
long-term strategy, building our priorities and goals for the 
next 5 years. On these foundations we will build the system to 
give our children the skills they need and the choices in life 
that they deserve.
    I am going to talk a little bit about some of the things 
that we have done so far.
    First, this year, after receiving multiple reports of 
problems with our central office, we have swiftly and 
aggressively moved to solve them. From former employees who 
were still receiving benefits and paychecks that they could not 
explain, to teachers who had not been paid and parents who 
could not get an employee to return a phone call, there were so 
many issues to confront that I set up a constituent services 
team to help parents and school staff navigate the central 
office. I learned that many staff members do not have job 
descriptions and that they had never received a performance 
evaluation. We responded. I communicated the mayor's higher 
customer service standards to all employees and lobbied for 
personnel legislation that would allow us to increase the 
efficiency of our central office as a whole and to create a 
culture of accountability. We are reorganizing the central 
office as we speak so that people's skills and performance are 
best suited to their positions and office. We created job 
descriptions for all employees and conducted our first round of 
performance evaluations. We have previously non-responsive 
employees who, after just one performance evaluation, are now 
working harder at their jobs. In the past 4 months, our 
customer satisfaction rate with the central office response has 
jumped from 41 percent to 59 percent, and I am confident that 
will continue to improve.
    Reforming DCPS requires that we have the best principals 
leading our schools. Previous DCPS recruiting has been minimal, 
but through a new principal recruitment campaign, we are 
interviewing and identifying quality school leaders. We have 
already received close to 500 applications, and we expect this 
number to grow as more prospective candidates begin considering 
their options for next year.
    Recruitment, however, is only half the task. To keep strong 
employees, leaders must recognize and reward good work. In the 
Nation's capital it is time for us to back our words about 
respecting successful educators with the investment that will 
keep them in our schools. We started this year by utilizing 
Federal funds to give what we call TEAM Awards to schools that 
showed dramatic gains in student achievement, and my long-term 
plans aim to increase performance awards to teachers and 
schools.
    In the past, DCPS has not supported teachers by providing 
them with the training they needed to drive instruction 
forward, and in a massive effort this year, we are turning 
around professional development. Before, there was no 
consistency in the quality of instruction across the District, 
and parents were rightfully frustrated by this disparity. Now, 
we are teaching our teachers how to use the best practices for 
reading and math instruction and making instruction consistent 
across the system.
    Also, we are showing our teachers how to use test data to 
drive instruction and abolishing the ``drill and kill'' style 
of teaching often associated with standardized tests. For 
example, the reading portion of the DC-CAS measures students' 
ability to read for meaning, a skill that this District as a 
whole has failed to provide. We are training teachers to use 
``constructed response'' questions to teach children how to 
show reading comprehension through fully developed written 
responses. This is not ``test prep.'' It is good teaching, and 
it is what gives children the skills that they will need as 
adults.
    We are also providing a monthly professional development 
calendar full of options across the District. These options are 
aligned to the specific needs of teachers and students as 
identified through testing data, surveys, and school 
observations. Not only will this help the District to track 
professional development for each teacher, it will support our 
teachers in honing their craft. Overall, our work in 
professional development this year increases our ability to 
retain the teachers we need, when too often in this field, 
isolation and a lack of support lead to preventable burnout.
    Since I have arrived, I have received an education in just 
how severe our problems with data management are. An initial 
assessment revealed that we have 27 disconnected data systems 
in the DC Public Schools. An update in one location did not 
automate an update in other areas where similar information was 
stored. This affected even the most basic operations. For 
example, in September when I attempted to send an e-mail to all 
teachers, my in-box was filled with returns from defunct e-mail 
accounts, and I was advised that I should back up the mailing 
with a paper letter sent to individual schools. Now, with 
continued outreach to schools and new connected data systems, 
this longstanding communication problem is being corrected. 
Through a collaborative effort with Human Resources, we have 
updated our teacher e-mail list from 45 percent accuracy to 
about 75 percent. Also this school year we worked with the 
city's chief technology officer to install 5,900 PCs in our 
schools so that every single DCPS classroom teacher has a 
working computer. They will use these new computers to view 
student data, take attendance, conduct research, take advantage 
of professional development opportunities, and, finally, to 
receive my e-mails.
    Streamlining our data systems is a massive undertaking that 
will occur over the next few years, but it is one of my highest 
priorities. In every area of DCPS, my long-term objective is to 
use data as every good organization does: To improve 
performance. My chief data and accountability officer has been 
successful in streamlining these systems in other districts, 
and I am confident that our plans for the District's data 
systems will result in significant progress in our offices and 
classrooms.
    Many schools had significant needs that require immediate 
attention this year. First, some of our schools are without 
psychologists, guidance counselors, school nurses, art or music 
teachers. Teachers are forced to attempt to provide the 
services that they are not equipped to provide, especially when 
I needed them to focus on instruction. Our schools with low 
enrollment numbers are particularly hard to staff. Schools were 
paying to maintain unused space when we need that money to 
staff the school and provide strong programs. In November, we 
introduced a plan to right-size the school system and bring 
strong new academic initiatives and a full staffing model to 
our schools over time. We are working through the remainder of 
the school year and summer to prepare schools for upcoming 
transitions due to school closures and new programs.
    We also have a number of schools that are not meeting 
Academic Yearly Progress under the No Child Left Behind Act, 
and we are carefully assessing the options available under the 
law to make the right decisions for each school. We will use 
these assessments to create plans for each school, not only to 
correct problems but to align their programs with our longer-
term plans for success.
    I know I am running over. Do you want me to continue?
    Senator Akaka. Yes.
    Ms. Rhee. OK. Special education in this District has been a 
real and deep hardship for many students and families. I have 
not only been shocked by the mistakes that have led to the loss 
of millions of dollars that could have been used to serve 
instruction, but also, more importantly, I have been saddened 
by the damage that DCPS has done by over-identifying students 
who should not have been classified and by failing to support 
the children who do need services.
    We have been aggressive about identifying the root of these 
problems and correcting them. To start, we will be working with 
the State superintendent of education to pilot mental health 
programs in middle schools; to introduce the comprehensive 
staffing model through the right-sizing plan next year; and to 
reform our process for identifying students for special needs 
services by accurately diagnosing learning needs. Our long-term 
strategies to raise student achievement levels include eight 
new school-wide applications model schools next year, which 
have shown tremendous success in urban districts across the 
country to ensure high achievement for both disabled and 
nondisabled students. This system currently has a reputation 
for being the least inclusive in the country when it comes to 
our special education students, and our focus now is how to 
become an integrated, inclusive district where we are not 
segregating these students.
    Historically, this system has not done well bringing 
parents into students' education. Our long-term plans will 
include the initiatives we need to engage parents in our work 
in schools. Many parents simply do not know what they can 
expect, demand, or do to support their children through each 
stage of the learning process. We are now building the 
foundations to communicate clearly with parents about their 
children's progress and about important processes such as 
college applications. We are holding parent information 
sessions, opening Parent Resource Centers, conducting focus 
groups with parents, and increasing our commitment to 
translating and interpreting information for linguistically and 
culturally diverse parents.
    During this first transition year, I have identified the 
problems that have been blocking student achievement for years. 
We are solving these problems. Whether by right-sizing the 
system, speeding a slow bureaucracy, or improving our data 
systems, we are building the foundation for a system that 
works.
    After this year we will move into the proactive long-term 
implementation strategy that will move us beyond correcting 
current problems to creating model programs. I want a portfolio 
of quality schools in every ward across this District that 
provides quality choices to all students and parents. I want a 
District that fosters a college-going culture in every ward, 
allowing our students to be as competitive for college as any 
students in the Nation. Clearly, we are far from seeing the 
results that I want today. But as I approach the closing months 
of this school year of transition, I remain determined and am 
very confident that we are going to see those changes happen.
    Senator Akaka. Thank you very much for your statement, Ms. 
Rhee. Mr. Reinoso.

  TESTIMONY OF VICTOR REINOSO,\1\ DEPUTY MAYOR FOR EDUCATION, 
 OFFICE OF THE DEPUTY MAYOR FOR EDUCATION, DISTRICT OF COLUMBIA

    Mr. Reinoso. Good morning, Senator. I appear before you 
today to report on the progress made by the District of 
Columbia in implementing the mayor's public education reform 
initiatives and on the strategies we are developing to continue 
that momentum moving forward. First, however, I have to pause 
to say how incredibly proud I am of the team that the mayor has 
put together to lead the agencies where the work is happening 
and of the job that each of them has done thus far to respond 
to the mayor's charge that we not just reform, but really 
remake, the District of Columbia Public Schools, and that we do 
this as quickly as humanly possible. As you will hear in the 
testimony of each of them, they have made great strides in 
addressing critical problems within their agencies--in some 
cases more progress than had been seen in many years before 
this team took charge--and at the same time, they are 
developing the long-term strategic plans that will guide us 
towards continued, systemic improvement in the future.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reinoso appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    The District of Columbia Public Education Reform Amendment 
Act of 2007 enabled the mayor to embark on a sweeping array of 
initiatives and reforms, some of which have already begun to 
fundamentally change our approach to public education. My 
office was established to oversee all of those efforts and to 
ensure that the entire District Government--including both our 
education and our non-education agencies--moves forward 
coherently and in alignment towards our shared goal: Ensuring 
the success of every student. I have also been charged by the 
mayor with marshalling all of the District's resources--public, 
private, and in the community--to improve the educational 
processes and outcomes for all the District's students in order 
to prepare them for successful futures. Thus, while each of the 
witnesses who joins me here will describe his or her own 
strategic plan to move us toward this goal within the scope of 
their agency's mission and capabilities, I will discuss the 
role of my office in coordinating these plans and, as 
importantly, ensuring that the human and other resources are 
made available to support their execution.
    To accomplish this critical task, I have organized my 
office around four broad activities: Coordination of a 
District-wide educational strategy; coordination and direction 
of high-quality services and programs that reach across city 
agencies and educational institutions to improve child and 
youth outcomes; development of robust partnerships with 
community-based organizations and the private sector that 
provide the District's education system with critical new 
resources; and leadership and support to the Office of the 
State Superintendent, the Office of Public Education Facilities 
Modernization, and the Ombudsman Office, all of which report 
through me to the mayor. We are moving successfully forward on 
several fronts, which I will highlight briefly here.
    When we set out to improve our public education system, the 
mayor made a foundation decision to attack the problem 
comprehensively. The Administration views education as a 
continuum from birth into adulthood: Learning is always taking 
place and access to quality educational opportunities must 
exist at every level. Also, it is not enough to transform what 
happens in the classroom; to succeed, we have to meet all of 
our students' needs, including the needs that students bring 
from outside the classroom. So as a government, the District 
must bring to bear all of the resources of its public and 
private sectors--in a coordinated manner--to support children 
and learning in order to create an environment in which they 
can succeed.
    My office is well positioned not only to think 
strategically about the direction of our reform efforts, but 
also to address specific challenges and tackle special projects 
that support implementation of the plans of each of these 
agencies. We are able to take on work that will enable the 
Chancellor and State superintendent to be more effective in 
their efforts. For example, my staff has played a leadership 
role in planning around how to align our education-related 
infrastructure and resources with outcome-driven priorities--
including the rapid closure of key service gaps. This work is 
continuous and correlates directly with the top priorities of 
the mayor.
    Most recently, my office has been leading the planning and 
coordination around the school facilities consolidation effort. 
In this role, we have provided capacity to the chancellor and 
her team around analyzing data, creating strategies, engaging 
the community, and, ultimately, developing recommendations for 
the reorganization plan. This joint effort led to a proposal 
that will enable the chancellor to drive resources down to the 
classroom and provide higher quality academic services to 
students across the city.
    We approach the reform agenda from a big-picture 
perspective. We can identify gaps in academic and support 
services and work with agencies to close those gaps. One 
example of the work which is detailed in my written testimony 
is the support we are providing to DCPS around implementation 
of an alternative high school model. In addition, the mayor's 
education initiative is being pursued across numerous fronts, 
and my office is again uniquely positioned to guide those 
efforts without being involved in the day-to-day management and 
operation of the education agencies. This is allowing us to 
aggressively pursue particular high-priority initiatives, 
restructure and reorganize services, and manage agency 
performance while keeping an eye on the big picture.
    The State superintendent will comment on some of her key 
priorities, including special education and addressing our 
high-risk designation for Federal grants. But we continue to 
support her in a number of other efforts as well: The 
comprehensive student warehouse, etc. I will not steal her 
thunder.
    Mr. Lew's shop has a more narrowly defined but no less 
daunting task: To repair, maintain, renovate, modernize, and 
construct as many of our school facilities as quickly, 
efficiently, and effectively as possible, and he will expound 
on those efforts.
    But a second critically important function of my office is 
to lead and coordinate the activities of the Interagency 
Collaboration and Services Integration Commission, more 
affectionately known as ICSIC, a panel created by the mayor's 
reform legislation and comprised of the agency heads from over 
20 agencies that touch the lives of children and families. 
ICSIC has a unique ability to identify new ways that we, as a 
government, can increase the chances of success for our 
students. Some of the key highlights of the work that has 
happened there is that we have begun now to develop a school 
preparedness assessment, which will be piloted this spring in 
100 kindergarten classrooms in April and May, with a broader 
rollout in the fall. We have also improved the tracking of 
child health indicators. Both of these are examples of how my 
office sits uniquely positioned not as a day-to-day operating 
agency, but as one that looks strategically across the 
government to provide support to the education agencies, and to 
integrate and align their work and the work of other agencies 
so that we are moving forward the full potential of children 
inside and outside the classroom. We have laid the groundwork 
for progress on a number of goals, and I expect similar 
accomplishments moving forward.
    Finally, as I said, my office is active in the development 
of school partnerships: Meeting with organizations seeking to 
support the mayor's reform efforts, tracking down and 
developing new partnership relationships, reviewing existing 
partnerships to better understand coverage and gaps and to 
determine their effectiveness in moving us towards our 
strategic goals. Since October, we have had dozens of meetings 
with organizations and have begun to lay the groundwork for, I 
think, some powerful new partnerships, both at the city-wide 
level but also at the local school level. I believe the success 
of these efforts is evidence that the Administration has 
communicated effectively with external stakeholders about our 
strategic approach to improving education in the District and 
shows that there are many people in the private and nonprofit 
sectors who are ready to help, so long as they feel that their 
efforts are part of a larger plan to move forward.
    Again, I thank you for the opportunity to share with you 
the progress that the District is making, and I look forward to 
your questions.
    Senator Akaka. Thank you very much, Mr. Reinoso. Ms. Gist.

   TESTIMONY OF DEBORAH A. GIST,\1\ STATE SUPERINTENDENT OF 
  EDUCATION OFFICE OF THE STATE SUPERINTENDENT OF EDUCATION, 
                      DISTRICT OF COLUMBIA

    Ms. Gist. Good morning, Senator Akaka, Committee staff and 
guests, and thank you for having us here. I really appreciate 
the opportunity to be here to discuss the progress that we have 
made in the Office of the State Superintendent of Education 
since we were here to brief you last summer, which is actually 
before the State functions were moved into our agency. So a lot 
has happened during that time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gist appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    I am going to talk to you about our strategic vision and I 
am also going to update you on two of the education reform 
efforts that we have been working on.
    The Education Reform Act that was enacted last summer and 
the transition plan that Mayor Fenty approved identified State-
level education functions that were within three different 
agencies that were transferred into the Office of the State 
Superintendent of Education on October 1, which was actually 
just about 5 months ago. And while extracting these State 
functions from these existing agencies was very complex, I am 
pleased to be able to tell you today that the transition 
occurred successfully. We met our goals. It was for the most 
part completely within our time frame. And the existing 
functions, including early childhood, for example, are set to 
transfer, in the near future. We expect the transfer to occur 
successfully.
    As a result of these transfers of responsibilities, we have 
been able to focus on establishing core foundational components 
that will allow us to be successful in carrying out our mission 
and providing the appropriate level of support and oversight to 
the local education agencies within the District of Columbia. 
The first of these foundational components that we are 
reforming, as has been mentioned, is the special education 
system. Our Federal grants management system is another. And as 
you know, the U.S. Department of Education has designated us as 
a high-risk grantee. And I am pleased to let you know that we 
have made quite a bit of progress, and I will go over just a 
few of those reforms that we have made on the Federal grants 
management briefly.
    For example, we are ensuring that we have adequate 
oversight over the use of Federal funds through monitoring of 
our local education agencies within Washington, DC, which 
includes DCPS as well as public charter schools. We are 
developing and refining our financial monitoring systems to 
ensure fiscal compliance. We are increasing our grants 
management accountability through the development of evaluation 
protocols for our LEAs. We are ensuring extensive collaboration 
with our local education agencies around different reform 
efforts in order to provide the maximum leveraging of our 
Federal dollars. And we are ensuring efficient fund allocation 
and distribution systems so that the Federal funds are 
allocated and distributed in a more expedited manner, which has 
been a failure of our system in the past, and also to improve 
our documentation.
    We are focused on developing a foundation, as has also been 
talked about, the importance of data, and this has also been a 
failure of our system in the past as both have access to high-
quality data but also to use that data effectively. The Office 
of the State Superintendent of Education is taking the lead on 
the development of a State-wide or a District-wide longitudinal 
education data warehouse that will link together the different 
data systems that all of our partners within the city are 
working on. It will include data from the public charter 
schools, from the DC Public School system, and will span from 
childhood through higher education and even include adult 
education.
    Thus far, we have created an interim data system that is 
based on a unique student identifier, which is obviously a key 
foundational element to any strong data system, and we are 
currently updating that on a monthly basis, bringing together 
data that we receive from the LEAs within the District.
    We have enhanced the interim student tracking system 
recently to include richer and more advanced data, including 
information on the student's grade level, where they are 
enrolled, their exit dates, and, where applicable, their 
special education status or their English language learner 
status.
    In addition, we have mapped all of this information to 
existing student achievement data out of the DC-CAS assessment 
so that we can not only get a picture of mobility, but so that 
we can also take a look at what that mobility might mean in 
terms of student achievement. This interim system will serve as 
a key foundational component as we move forward in developing 
that comprehensive data warehouse.
    The final foundational component that is central to our 
reform strategy is the development of our strategic plan. Our 
mission at the Office of the State Superintendent of Education 
is for all District residents to receive an excellent education 
for success in the 21st Century. The framework of the strategic 
plan that we are currently developing is for all students to be 
served and supported, that all children will be ready for 
school, that all students will have access to excellent 
schools, and, finally, that all residents will be prepared for 
success in college or in the 21st Century workplace. These 
goals include functions that we are already responsible for, 
such as the child nutrition programs, early childhood 
functions, and responsibilities around student achievement in 
the District.
    So we have a long road ahead of us as we continue on these 
reform efforts, but I really do believe that there is no 
greater civil rights challenge that we have right now in our 
country, and certainly in our city, than ensuring that our 
children have access and receive a high-quality education at 
every level of their experience in our systems. And I take that 
responsibility very seriously, as do the members of our team 
here, as do the people on our staff. I am confident that 
providing the proper foundations of reform through efforts like 
our Federal grants system and the data warehouse--these are 
tools and things that we need to be operating effectively so 
that the instruction, the parts that Chancellor Rhee and the 
teachers that are actually interacting with our students every 
day so that they can be successful.
    We will ultimately be judged at the end of the day for 
whether or not our student achievement increases, and we are 
fully committed to seeing those results.
    I appreciate this opportunity to be here with you this 
morning, and I look forward to your questions and our 
conversation. Thank you.
    Senator Akaka. Thank you very much, Ms. Gist. Mr. Lew.

  TESTIMONY OF ALLEN Y. LEW,\1\ EXECUTIVE DIRECTOR, OFFICE OF 
PUBLIC EDUCATION FACILITIES MODERNIZATION, DISTRICT OF COLUMBIA 
                         PUBLIC SCHOOLS

    Mr. Lew. Thank you. Good morning, Mr. Chairman. Thank you 
for the opportunity to appear before you today. For the record, 
my name is Allen Lew. I am the Executive Director of the Office 
of Public Education Facilities Modernization. Our office was 
established by the Public Education Reform Amendment Act of 
2007. It is responsible for the maintenance and repair of 
existing DC Public Schools, as well as rehabilitation and 
construction of schools and facilities and the development of a 
revised Master Plan for the system.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lew appears in the Appendix on 
page 88.
---------------------------------------------------------------------------
    In the past several months, we have been engaged in a 
number of initiatives aimed at addressing quality-of-life 
issues necessary to support a classroom and school environment 
that is conducive to learning. These initiatives, including 
athletic field renovations, a Summer Blitz program, targeted 
roof repair programs, and fire and health code abatement, as 
well as a system-wide heating system maintenance program--
concentrated on the most glaring deficiencies affecting the 
school facilities when the mayor took over the system. I am 
pleased to report that we have successfully implemented each of 
these urgent-need projects.
    At the same time, I am proud to say that we also have been 
able to undertake significant management reforms since I last 
appeared before this Subcommittee, while also preparing for 
major construction initiatives this spring and summer.
    In terms of organizational reforms, we set up an office--
literally from scratch--to manage the summer blitz and targeted 
repair programs and the athletic field renovations that I just 
mentioned. We have drafted and published new procurement 
regulations. We have drafted new personnel regulations. We have 
competitively procured a program management team that provides 
roughly 22 FTEs to augment our school construction and 
facilities maintenance and staff, we have assumed 
responsibility for school maintenance functions. We have 
engaged a management consultant to develop state-of-the-art 
procurement, human resources, and information management 
systems, and we have begun the process of transitioning former 
DCPS OFM personnel into our office.
    On the school modernization side, we have worked to change 
the former culture of project management at the school system 
and in some cases, construction management teams for certain 
projects have been terminated. For instance, at the Savoy 
School, the contractor, the builder, was terminated for the 
construction phase.
    All of our renovation and new construction project budgets 
are being reviewed, and they are being ``right-sized'' to more 
accurately reflect what we expect to be actual costs. In the 
past, the cost estimates in the budgets were based to be simply 
square footage and had no relationship to real needs or to the 
conditions of the schools. We are correcting that now.
    We currently have approximately 20 major construction 
projects that are in various stages of design, preconstruction, 
and construction that are moving forward expeditiously. As we 
move forward with these projects, we are reassessing the 
minimum quality standards for school buildings. We have found 
that some of the existing standards do not reflect the need for 
durability, maintenance, and life cycle of finishes, for 
example, of a school facility, and that this ultimately could 
affect the long-term cost and short-term labor requirements to 
maintain these new and renovated schools. One advantage of 
OPEFM being responsible for maintenance as well as construction 
is that we are considering what it takes to maintain buildings, 
not just to build the buildings early in our planning and 
design process.
    On the topic of maintenance, through the various repair 
programs we initiated this past summer and fall, we 
substantially reduced the backlog of work orders at about 70 
schools. We are currently in the process of clearing the 
remaining work orders throughout the system. We also are 
initiating a stabilization program, where the 60 or 70 schools 
that were not really participants in the programs this past 
summer are going to be receiving upgrades and repairs. As part 
of this, we are establishing a triage system so that when new 
repair orders come in, they will be addressed more quickly and 
efficiently. Emergency repairs will be addressed right away. 
Routine maintenance type repairs will be integrated into 
possibly a larger effort when the classrooms are not being 
disrupted by our work crews.
    We have also initiated an air conditioning program. We have 
discovered that many of the classrooms actually did not have 
air conditioning. It was not a question of repairing the air 
conditioners. There was just absolutely no air conditioning. So 
we are in the process right now of getting all of the central 
AC systems running properly, as well as ensuring that air 
conditioning units in the classrooms are installed where 
necessary. One of the main hurdles right now relates to the 
fact that the schools have inadequate electrical capacity in 
many instances. So we have to actually upgrade the electrical 
systems before even installing the air conditioners.
    Our goal is to get the new classroom air conditioning up 
and running by late spring. In some cases, we are going to have 
to rely on some temporary systems. We did that with the heating 
program a few months ago. About seven or eight schools required 
temporary boilers that were brought in to provide heat until 
the permanent system was repaired. And we are going to be doing 
the same thing with the air conditioning systems in some of the 
schools this spring. There are about 10 or 12 that will require 
temporary chillers, and we are going to have to provide some 
temporary electrical upgrades that would allow us to power up 
the systems.
    On the larger modernization initiative, we are working with 
the deputy mayor of education and the chancellor to refine 
school/grade configurations across the system, prioritize 
facility delivery, and identify systemic efficiencies that will 
allow us to move more students into new and modernized school 
buildings faster. In addition to the data used to develop the 
educational specifications for the chancellor's school 
consolidation plan, much of the data developed in the 2006 
Master Facilities Plan are still relevant to our modernization 
efforts. We also found that the facility assessments--the 
information that was prepared during the past Administration as 
part of the master plan process was extremely helpful to us in 
our effort to deal with the heating and the electrical problems 
in the system as we move forward with the stabilization 
efforts. Right now we also are going through a major effort to 
reassess the construction formula that was implemented as part 
of their master plan by our predecessors to determine whether 
to build new schools or restore or expand existing schools and 
the logic behind the decisions that were made in the past. 
Having analyzed that formula, we are working now to find a 
balance that will result in a more effective and efficient 
combination of rehabilitation and new construction for the 
revised Facilities Master Plan. Ultimately, we think this will 
allow us to modernize quicker and address the long-term needs 
sooner, and as well as possibly reducing the capital 
expenditures over the course of 10 or 15 years.
    I am excited to be working with the mayor, deputy mayor, 
and the chancellor, as well as the State superintendent, to 
implement these reforms. If there are any questions, I am more 
than pleased to take them. Thank you.
    Senator Akaka. Thank you. Thank you very much, Mr. Lew.
    Mr. Reinoso, under the requirements of the No Child Left 
Behind Act, when a school is failing, parents, teachers, the 
community, and the administrators come together and develop a 
strategic plan to improve that one school. When a system of 
schools is failing, don't you think a similar plan should be 
put together that addresses reforms for the entire education 
system?
    Mr. Reinoso. You are saying should there be a comprehensive 
plan for the education system?
    Senator Akaka. Yes.
    Mr. Reinoso. I think the answer to that is yes, and I think 
the question is where are we looking for that plan. If you look 
at the State level, there is a State plan--which in DC is 
another way of saying city-wide plan--that is being developed 
around accountability and around the requirements of the No 
Child Left Behind Act, by the State superintendent. If you look 
at the local school level, in addition to work that is being 
done by the charter schools, our largest local education 
agency, led by Chancellor Rhee, is developing its own 
comprehensive plan to address both underperforming schools, to 
meet the requirements of NCLB, but also to provide a compelling 
and comprehensive public education option to all of the 
residents of the District of Columbia.
    So I think, again, the answer is yes, there should be a 
plan, and I would argue that there is a plan. The Chancellor 
has a comprehensive plan for DCPS that she is developing over 5 
years where people will be able to see the metrics, the 
benchmarks, and the specific focus areas year after year, and 
as the Superintendent mentioned, she is working on a 5-year 
plan where, again, there will be laid out clear, transparent 
metrics and goals for year after year after year. And then my 
office will ensure that they have the resources necessary to 
execute their plans, and also that there is the necessary 
accountability.
    As they lay out their metrics, we will be trying to stay 
ahead of the public in terms of holding them accountable 
because the public will then hold the mayor accountable for 
whether or not they met their goals.
    Senator Akaka. Well, without question, the testimony and 
statements given this morning by this team demonstrates a 
strategy for reforms. But can you tell me how you are 
communicating that plan to the education community? And what 
are you doing to incorporate constructive feedback? You touched 
on that, but can you be more specific?
    Mr. Reinoso. Sure. The chancellor is developing her plan, 
and then I think once there is a firmed-up document, she will 
be engaged in a fairly broad effort to communicate her 
priorities to the community. With your permission, if you want 
to ask for the specifics of the engagement strategy that she 
intends to pursue, by all means do so. The superintendent will 
also be conveying her plan, and there has already been, I 
think, community involvement to some extent in both 
conversations. And so throughout this time, throughout these 15 
months, and even prior to that, during the campaign, all of us 
and the mayor have collected a tremendous amount of information 
of what the community needs and expectations are for the school 
system, and we are incorporating that in these drafts, which 
will then go out to the public in a very transparent way, at 
which point we will get additional feedback.
    With Mr. Lew's plan, likewise, we are working on developing 
a new Master Facilities Plan and there will be a community 
engagement process as part of that. And so at the high level of 
the plans, there is community engagement, and then in the 
execution, there is also community engagement. Just as an 
example, there was a tremendous amount of engagement around the 
school consolidation proposals the chancellor put forward. Nest 
week, we are beginning a series of community meetings around 
the next step in this process--the reuse of those school 
facilities--so there will also be opportunities for folks to 
provide comment as we move forward on that strand of work. And, 
similarly, the chancellor has held meetings around her 
restructuring proposals. There will be community engagement 
around the principal selection effort that she is engaging on. 
And Mr. Lew has met with a number of communities around 
individual specific facilities projects.
    So, again, I think you can tease these opportunities for 
engagement out at various levels, but there is engagement in 
the process. And in terms of communicating the big-picture 
priorities, the mayor first at the 100-day point in his 
Administration communicated a set of priorities, and then at 
the beginning of this year he also communicated an expanded set 
of priorities around education that highlighted aspects of both 
the State superintendent's efforts and the chancellor's 
efforts. So I think folks have multiple ways of knowing what we 
are working on and then commenting on individual pieces of it 
as they evolve in their implementation.
    Senator Akaka. Well, I believe transparency--and this is 
what I am talking about--is so important, especially for the 
people you are serving so they understand what it is you are 
trying to do. And my purpose in having this hearing this 
morning and the one that we had previously was really to bring 
not only to the DC community but also the congressional 
community information about what you are doing and how you are 
doing it. And this is very important to gain support, and for 
me now, I have extended it to not only DC and Congress, but the 
rest of the country----
    Mr. Reinoso. That is right.
    Senator Akaka [continuing]. Is looking at DC and what DC is 
doing to reform the system. So it is very important that we 
have a process for transparency here.
    Let me ask the chancellor, the superintendent, and Mr. Lew, 
the question that I asked Mr. Reinoso: How are you 
communicating your plans to those affected by the reforms? And 
what are you doing to incorporate constructive feedback? I am 
glad to hear from some of you the word ``partnership'' and 
trying to work other groups in as well. But how are you 
communicating your plans, chancellor?
    Ms. Rhee. Sure. If you look at some of the major reforms 
that we are putting in place right now around, for example, 
right-sizing the District, so school closures and 
consolidations, the school restructurings, the principal 
hirings, in each of those circumstances we have very specific 
plans about how we are going to engage the community more 
broadly in that. An example of that is around the school 
closings. In November, we came out with what our tentative 
recommendations were for right-sizing the District as well as 
the creation of new programs. We then embarked on about 10 
weeks of community meetings and every night went out, talked to 
the different communities. And it was interesting to me because 
throughout that process, people often would come to those 
meetings and say, ``Well, you have already made up your mind. 
We do not really believe that you are listening to us. And so 
we think that this is sort of a farce.''
    And I would say to them, ``Well, if I had already decided 
which schools would be closed, I would have had the mayor sign 
that executive order the following day, and I would have saved 
myself several months of getting yelled at every single night. 
My focus here is to really listen to what people have to say.''
    And at the end of that process, we did make a significant 
number of modifications to our original plan. And it was 
interesting for me to sort of then circle back with the people 
who we had engaged in conversations with and to really hear 
people--a lot of people say, ``You know what? We didn't really 
think that you were listening, but now when we see what you 
have finally recommended to the mayor, we know that you were.''
    I think this is hard because some people who had a lot 
things to say and maybe we did not make the decision that they 
would have liked, they said, ``Well, you weren't listening.'' 
But for me, it is about--I cannot as a leader do everything 
that everybody wants me to do. My job as a leader is to make 
sure that I am hearing all of those voices, taking into 
consideration all those things, but in the end making the 
decisions that I think are going to enable us to move this 
District forward in the most effective way.
    I do anticipate that we are going to have a lot of 
community involvement in the school restructurings as well. We 
have 27 schools right now that are in restructuring status. 
According to NCLB, all of those 27 schools will require a 
significant intervention before the next school year begins. We 
will have to be implementing those. So we have already begun 
that process. We have met individually with each principal, 
with each staff, with each parent group, what we call our Local 
School Restructuring Teams, LSRTs, and then more broadly with 
the community. We have done that already to explain NCLB and 
the mandates, etc., and then we will be engaging in further 
processes over the next few weeks as we are deciding finally 
which options we are choosing for which schools.
    Senator Akaka. Superintendent Gist.
    Ms. Gist. Yes, we actually started our engagement efforts 
last summer when we were preparing for our transition, and the 
first document that we needed to get prepared was that 
transition plan that I mentioned in my testimony. And we 
engaged the public very extensively in the development of that 
plan and multiple drafts of that plan, which culminated in a 
large public event where we got extensive feedback on that 
final draft prior to presenting it to the mayor. And we have 
used that plan, which outlined our five policy priorities, we 
have used that plan as well as a number of other plans that are 
existing in the city. And I think that is also a really 
important point, that this team is not the first team that has 
come together to develop some plans for the District of 
Columbia. There are a number of plans in particular that we 
have used to inform our work right now, and one of those is the 
Master Education Plan that was developed with extensive 
community engagement. And so I think it is important to use 
what has been done before.
    In addition, Mayor Fenty walked throughout this entire city 
over many months, listening to the public, and used that 
experience and what he heard from the public to develop his 
initial education framework when he was first inaugurated a 
little over a year ago. And we have used those goals and 
priorities in the development of our plan as well.
    We currently have a framework, and I talked about the four 
main goals of that framework in my testimony. And we are using 
that framework that is actually up on our website right now. We 
are coordinating, listening to see what feedback people are 
giving us about that, and we will have a walk-around document 
for our plan at the end of this month, which we will begin to 
use to engage the public.
    In addition to that, our office has the unique opportunity 
of having the State Board of Education, which includes 
appointed but also publicly elected members, and so we have the 
opportunity to take advantage of the public engagement through 
the responsibilities at that State Board of Education in their 
public meetings as well as in their meetings within the parts 
of the city that they represent.
    We also have a number of other groups--the State Advisory 
Panel on Special Education, for example--that can help to 
advise us with specific parts of our plan. And so those are 
some of the things that we are doing to engage the public in 
our planning processes.
    Senator Akaka. Thank you very much. Mr. Lew.
    Mr. Lew. Yes, we have been meeting with different groups at 
various different levels, sometimes on particular school 
projects, and other times on larger issues. We have also been 
meeting with the business sector and the relevant trade groups. 
We have also had meetings with contractors and workers. And we 
also set up a website where much of the information that we 
share with the Council or even the information we also would 
share with Congress, we would have on the website so people can 
access it and see for themselves.
    So we really do believe in public input. I think I have 
made it very clear that if we are not building schools that are 
responsive to the community and to the schools and to the 
families, then why are we doing this? There really isn't any 
reason to go and just rebuild schools for the sake of 
rebuilding schools.
    So it is important that we are responsive to the needs, and 
I believe the transparency helps alleviate a lot of the 
anxieties. When many of us--Victor, Michelle, and I, and I 
think Deborah Gist, when we go to meetings, at least a few 
months ago, it is almost like a hanging trial or something. We 
walk in and before we can say the first word, some of the 
people are angry already. And I believe we are helping arrest 
that. The anger and the frustration is mostly caused by years 
and years of disappointments and broken promises. And I think 
the team that has been assembled by the mayor is very 
responsive to the needs of the city and its children. And I 
believe in a very short time we have actually demonstrated some 
measurable progress.
    Senator Akaka. Well, thank you. That particular question of 
transparency was about informing the people you are working 
with and also the feedback is listening to how they think about 
what you are doing.
    Ms. Ashby, what is your reaction to Mr. Reinoso's response 
to the question about strategic plans?
    Ms. Ashby. Well, everything that has been said by Mr. 
Reinoso and the other panelists here certainly is true. They 
each are working on their own plans, or they are working on 
revising plans that pre-existed before they took over various 
aspects of the school system.
    However, what we are talking about when we say a long-term 
District-wide education strategic plan, we are talking about 
something different. We are talking about--I think the word 
``comprehensive'' was used earlier. Certainly comprehensive, 
but something that covers education in the District as an 
entity, as a whole. And none of these efforts by themselves do 
that.
    In fact, one of the things that the reform effort did was 
to separate the local education agency, Ms. Rhee's DCPS, from 
the State level, which a good deal of that responds to 
criticisms and concerns from the U.S. Department of Education 
in terms of handling Federal grants. But in separating the 
functions, we now have a need to integrate them because they 
are part of a whole. And in a number of States, States have 
strategic plans for education. The State of Hawaii is one that 
has a very comprehensive plan that would include all the 
elements that experts say one should include in the strategic 
plan.
    And it is interesting because one of the reasons for doing 
that is to provide a road map, not only for people involved in 
the system currently trying to bring about change and improve 
the system, but a road map for people outside of the system--
stakeholders, parents, teachers, students--well, students and 
teachers are inside the system. But those who are outside the 
system, the Congress, DC Council, for them to ultimately know 
where things are going.
    Now, we are not saying that we would have expected in 6 
months for this team to have put together such a plan. But we 
are concerned that maybe they do not have an intention of ever 
putting together one. The things they are doing in terms of 
looking at the particular areas and discussing things and 
talking among themselves and what Mr. Reinoso is doing is all 
great, very valuable. It is what would be needed to develop a 
District-wide education strategic plan. But also part of that 
is to bring in stakeholders outside of the immediate team, not 
just to comment on decisions made or not just to hear about 
plans, but to be at the ground level helping to develop those 
plans. And that is one of the advantages of having a strategic 
plan.
    One could even argue that before you would want to finalize 
a DCPS plan or a State-level plan, you would want to have your 
overarching plan and that those plans would be sub-plans that 
would buy into the goals and objectives and time frames and so 
forth.
    So there is no recipe here for what needs to go in the plan 
particularly. There are certain things that need to be covered 
in terms of goals, objectives, time frames, but it is something 
that is missing. And as I said, we believe that what has been 
done has really been valuable and everyone seems to be on the 
right path, but we are concerned that maybe that path is not 
going to lead to an overarching plan.
    Senator Akaka. Well, thank you for that, because from what 
I have been reading, it appears that GAO has been, I will use 
the word, ``insisting'' on a long-term strategic plan. And I 
look upon what the team is doing as an immediate or short-term 
move towards improving the system and developing a long-term 
strategic plan.
    So let me ask the chancellor, would you care to respond to 
that answer?
    Ms. Rhee. I would. I would say that part of the problem in 
public education today is that we have a whole lot of plans and 
not enough execution. And I would say that--who would be the 
audience for this plan? If we created the 100-, 200-page plan, 
in the end who would end up reading this plan and where would 
it go? Because when I walked into office in June, I came into 
an office that had binders and binders of strategic plans that 
consultants came in and literally none of these things had been 
executed. I would argue that what needs to happen in the 
District of Columbia today to improve public education is that 
we are taking a much more sort of active approach, that instead 
of taking the time of incredibly valuable people and staff to 
create a plan that will sit on a shelf somewhere, that we 
engage in what we are doing right now. This team meets together 
at least once a week, and we talk through very specific issues 
at the school level, even to the extent of the student level.
    For example, the other week we found that there was one 
elementary school student in one of our schools who had missed 
all of January, unexcused absence. We immediately got on the 
phone. The deputy mayor's office was activating CFSA, a number 
of other agencies, and together we actually found the child. We 
had MPD go out with us to the home, talk to the parents, came 
up with a plan.
    This is the kind of action that is necessary to make sure 
that no child falls through the cracks and that we are actually 
doing the right thing. And I would say that our energy and our 
time has to be spent doing real work as opposed to creating the 
plans because I think that if you look broadly, there are lots 
of strategic plans out there, and I don't think that is what is 
needed in the District today.
    I certainly think that one of the things that we could do 
is once the Master Facilities Plan, the State superintendent's 
5-year plan, and my plan are all put together, that we could 
have some kind of a document that sort of outlines how all 
these things fit together. But I think to engage in a 5-year 
planning process overall for the District separately is 
probably not, in my opinion, the best use of time.
    Senator Akaka. Ms. Rhee, let me ask you a question about 
the school consolidation plan.
    Ms. Rhee. Yes. Are you going to yell at me, too?
    Senator Akaka. For those losing their schools, what are you 
doing to address the concerns of parents and students about the 
school closings in their neighborhoods? Can you respond to 
that?
    Ms. Rhee. Sure. The first thing that we did was we engaged 
in a very significant communication effort where we held 
multiple meetings for each school that was proposed to be 
closed to get feedback and the idea of what concerns and issues 
existed in the community. We heard those concerns and then made 
modifications based on that. Now that we have made the final 
decisions about which schools will be closed, we are engaging 
in a process where we will create a transition plan for each 
and every school separately. That plan will be created with the 
staff and the school community to make sure that issues of 
safety, transportation, staffing, etc., will all be addressed 
within those plans.
    I am very happy to say that we, in working through our 
budget for the 2008-09 school year, are already seeing the 
benefits of the right-sizing. Two, what we are going to be able 
to do to the schools, we will have many more resources 
available to the schools. We will be able in the schools that 
are impacted, with the students who are impacted by the 
closings, those are the schools that will have the 
comprehensive staffing model in place, which includes 
additional academic supports like literacy coaches and numerary 
coaches. We will have wellness support such as social workers, 
guidance counselors, and psychologists at those schools, and 
enrichment supports, so music, arts, and PE teachers. And I 
think that in collaboration with Allen Lew's office and the 
facility upgrades that we will see in those receiving schools, 
that every family who is impacted by the school closings will 
see that they are in a school that is much better resources and 
staffed for the fall.
    Senator Akaka. Of all of that you have said in your 
statement as well as your responses, what are the top program 
initiatives for next year? And how do you see those aligning 
with the AYP, average yearly progress, requirements under No 
Child Left Behind?
    Ms. Rhee. Absolutely. So I would say the first initiative 
that we have that we believe will have a significant impact on 
that is the comprehensive staffing every single school across 
the District should have in terms of resources because right 
now across the District that is very inconsistent, the level of 
staffing that schools have. So we are going to be implementing 
this model, the staffing model, eventually across the District, 
but initially within this first year at the schools that are 
the receiving schools for these students.
    Because the comprehensive staffing model has things like 
the literacy coach, the numerary coach, and a number of other 
academic supports in it, we truly believe that what this will 
do is allow the schools to have the additional resources 
necessary to make the improvements so that they can meet AYP 
moving forward.
    Senator Akaka. Ms. Gist, would you want to respond to the 
question about strategic plans, also?
    Ms. Gist. Yes, I definitely would. Thank you, Senator. I 
actually agree with Ms. Ashby about the importance of thinking 
long term about where are we going with these reforms efforts. 
And I know our team does. I definitely also agree with 
Chancellor Rhee that at the end of the day, what really matters 
are the results that we get. And I think that I want to 
emphasize that the plan that the Office of the State 
Superintendent is putting together is a District-wide plan. 
Hawaii is actually a very good example because you have State 
responsibilities in Hawaii that you have in one large school 
district. And the Office of the State Superintendent's plan, 
which, again, is being developed using all the plans that have 
been developed over the past, as well as current community 
engagement, includes early childhood, it includes pre-K through 
12, which includes DCPS as well as the charter schools. It also 
includes adult education and to some extent higher education, 
and our college access responsibilities.
    So I do think that a plan is necessary, but I think that 
the plan that we are developing is one that does tie these 
responsibilities together.
    Senator Akaka. Mr. Reinoso, I am impressed by the work that 
you are doing with the Interagency Collaboration and Services 
Integration Commission. As you know, H.R. 2080 amended the DC 
Charter to lay out clear accountability mechanisms for the DC 
Department of Education. As part of the ICSIC, other agencies 
such as the Child and Family Services Administration also work 
to help improve the educational success of students.
    Since these agencies are not covered by H.R. 2080, how are 
they being held accountable?
    Mr. Reinoso. Thank you for that question, Senator. The work 
of the Interagency Commission has been structured around six 
goals: That children are ready for school, that children and 
youth succeed in school, that children and youth are healthy 
and practice healthy behaviors, that they engage in meaningful 
activities, that they live in healthy, stable, and supportive 
families, and that they make a successful transition to 
adulthood.
    We have taken each of those goals and identified key 
indicators for the city's performance in meeting those goals, 
and each month the commission gets together to discuss our 
performance around one goal. And so we have cycled through all 
six goals once, and at each point we have identified gaps in 
our performance and laid out short-term as well as longer-term 
interagency initiatives that we think are critical to improving 
the city's performance against the indicators for the 
respective goals. And added to that basic process is that in 
some cases a situation requires immediate intervention, in 
which case we have scheduled separate or follow-up Cap Stats to 
review performance and initiatives around a specific agency's 
efforts to address that situation. In other cases, we have 
identified initiatives that are critical but not as time 
sensitive that we will not revisit until we come back to the 
goal its connected to.
    So for example, for goal one, when we talked about making 
sure children are ready for school, one of the things that was 
evident from the onset was that we did not have any 
comprehensive mechanism for assessing whether children were 
ready for school. And so we then embarked on a process that 
included a number of agencies, including the Department of 
Health, the State Superintendent's Office, and the Department 
of Human Services, to try to determine how we could best 
address that. And again, as I mentioned before, we are now 
ready to pilot a school preparedness assessment later in the 
spring.
    In other areas where there are crises, for example, the 
terrible situation we had with the Banita Jacks case, the 
mother who now is accused of murdering her four children, the 
ICSIC got together around that to do a sort of step-by-step 
review, reviewing all of the places where this family 
interacted with an agency to identify where there were missteps 
or where there could have been other efforts to support the 
family and to avoid them falling through the cracks. And we 
have since developed a number of initiatives that reflect 
reform opportunities that were made plain by that case. And 
that is also one of the mechanisms by which we are holding the 
agencies accountable through ICSIC.
    Finally, I think that one of the somewhat intangible but I 
think critical benefits that has come out of the commission is 
that there was a real distance in the past between these 
agencies and the education agencies. And I would say even more 
than distance, there was sometimes antagonism between these 
agencies. And now as a result of this process, the agencies are 
volunteering ideas of how they could provide support to the 
chancellor or to the State superintendent, and likewise, the 
education agencies are providing ideas to the other youth- and 
family-serving agencies about ways that they might help with 
something that one of the agencies is undertaking.
    And so, again, I think as those working relationships 
continue to improve, as we continue to hold agencies 
accountable through the monthly commission meetings and the 
affiliated meetings, we are going to see a lot more activity 
and a lot more innovation in the District in terms of 
supporting the whole child and the family. And while those 
kinds of supports are not part of the interventions in the No 
Child Left Behind Act, I think that we will see that they will 
have a significant positive effect on our academic performance 
as a city.
    Senator Akaka. Ms. Ashby, do you have a response?
    Ms. Ashby. I actually wanted to move back to strategic 
planning, if that is OK, briefly.
    Senator Akaka. That is fine.
    Ms. Ashby. I wanted to make two points. First of all, as I 
said earlier, we are in no way trying to say anything negative 
about the actions that have taken place. Of course, a plan that 
is not implemented is no good, and we know that developing a 
plan for the sake of developing a plan and putting it on a 
bookshelf is useless. So we agree with Ms. Rhee that, of 
course, a plan has to be implemented and there has to be 
activity. And there has been a lot of action and activity, and 
we applaud it.
    The second point has to do with whether or not the State 
superintendent's strategic plan is the type of plan we 
envision, and in discussions with Mr. Reinoso, we have been led 
to believe that it is something else. But if that is the case, 
because, as you know, you have asked us to take a longer-term 
look at what is going on with the reform, and over the next 
several months, if it unfolds that the plan is the type of plan 
that we envision in our recommendation, we certainly will be 
able to tell you that in the future.
    Senator Akaka. Well, thank you.
    Chancellor Rhee, I would like a response to what she said. 
I know that GAO has been moving towards a comprehensive long-
term strategic plan. From what we have heard from you, you have 
been dealing with today's challenges to try to fix the system 
so that you will be ready to set a solid base so you can begin 
to build on it. And what we are asking about is, are you moving 
to those long-term strategic plans also. So if you would 
respond to that at this point, and then I have another one on 
human capital, but respond to that.
    Ms. Rhee. Sure. And I think that what you will see is that 
within the next few months, and certainly before next school 
year begins, you will have a comprehensive 5-year strategic 
plan from the District, and ours will actually be a little bit 
different because we are using as our base the Master Education 
Plan that was in place and has been developed over a 
significant amount of time by the community. And so our 
strategic plan is really sort of the implementation plan around 
that Master Education Plan. But it is a long-term plan. The 
State superintendent is also planning on creating a 5-year 
plan, and then the Master Facility Plan that Mr. Lew is 
creating is actually longer than 5 years.
    So I think that what you will be seeing over the next few 
months is absolutely that longer-term thinking. I think that 
what we want to communicate about this is that I do not think 
in any jurisdiction outside of a State plan and District plans 
that you have another plan then layered on top of that. I just 
do not know what the purpose of that would be or what 
information would be included in that plan that would not be 
articulated in the plans that we are going to create. But I do 
think that one thing that we can do is to sit down with GAO to 
lay out what will be sort of the substance of each of our 
plans, and I am very confident that what folks will find is 
that we are taking a very long-term view to overall what is 
happening in education in the city.
    Senator Akaka. Does anyone else on the team want to make 
any comments on that? Mr. Lew.
    Mr. Lew. Mr. Chairman, I'd just like to echo what 
Chancellor Rhee said. We have been putting out fires for the 
last 6 to 9 months. I kind of draw an analogy between someone 
gets hit by a car: Do you call the emergency EMS or do you sit 
down and discuss with the injured person whether it should be a 
Blue Cross Blue Shield plan or should it be Care First or 
something? And I think we are now getting to the point where we 
are above water, and we can focus on the need for long-term 
planning. And I think much of this is coming together. 
Certainly as a group, I think, we are going to continue to be 
interested in implementation, though, because we know the 
failures of the past. Many of us have been given reams and 
reams of loose-leafs of plans, plans and more plans. And we 
found that true when we go through these plans. Many of the 
plans have made sound assumptions. So, even when my office was 
asked to revise the Master Plan for School Facilities, it was 
not really a wholesale revision. Much of the information that 
was gathered previously was rational and sound. And we are 
adapting much of it, and we are updating it. However, some of 
the plans that were submitted in the past were rejected by the 
Council, or rejected by the chief financial officer because 
they were not affordable. So we are addressing cost constraints 
which is a major, significant issue. We're asking ourselves: 
How do you present a plan that is not affordable? How do you 
present a plan that does not coincide with the needs of the 
system?
    The chancellor has asked whether we can implement the 
Facilities Plan sooner than later, and so we are trying to 
address the concerns of the children, but also the realities. 
What can the District afford? So I believe that in the not too 
distant future, in a few months, we will be able to produce 
some plans that will reflect on not only the political 
realities but also the financial capacities of the District of 
Columbia.
    Senator Akaka. Chancellor Rhee, we deal with human capital 
issues on this Subcommittee all the time, and that is a huge 
challenge for us in our country. And we know how hard it is to 
attract and retain talented employees.
    As you restructure the personnel at the central office, 
what performance benchmarks and incentives are being put into 
place?
    Ms. Rhee. So this is a topic that is very near and dear to 
me. I spent 10 years prior to coming into this position as the 
CEO of the New Teacher Project, which was an organization that 
was solely dedicated to improving the human capital in urban 
school districts across the country.
    I am a firm believer that we can have great new sparkly 
buildings, we can have all the most wonderful curricula out 
there; but unless we have great people working in our school 
system, it will all be for naught. So, in many ways, our 
significant focus is on ensuring that our human capital needs 
are being met.
    I feel a tremendous amount of confidence around this right 
now on multiple levels. First, obviously, the personnel 
legislation that City Council passed will allow us to begin 
tackling this issue at the central office and will allow us to 
ensure that we have a system of accountability and a culture of 
accountability at the central office first. Already what we 
have seen is that through the month of January, we completed 
performance evaluations on every central office employee that 
we have. That had not happened for the prior 5 years. And we 
put in place individual benchmarks for a number of our 
departments. We have department-level scorecards, and we have 
an organizing function that is similar to the mayor's CAP Stat 
program that we call ``School Stat.'' And so we are looking on 
a weekly basis department by department at whether or not 
departments are on track to meeting their goals. We are happy 
to provide more information along those lines.
    We started something very important, in December I believe, 
in what we are calling the TEAM Awards. We identified criteria 
where we said that we wanted to identify schools that had seen 
the most significant student achievement gains last year. Those 
were schools that would have had more than 20 percentage points 
gains in reading and math separately. There were three District 
schools that fell under this criteria. We used a grant that we 
had gotten from the Federal Government, from the U.S. 
Department of Education, to give significant awards to these 
teachers and the school staff. We actually gave $8,000 to each 
teacher in the building, $4,000 to every ancillary teacher, 
like counselors, librarians, etc. And we also gave $2,000 to 
every custodian and clerical worker.
    We thought this was incredibly important for multiple 
reasons, but I will add that though the Federal Government 
funds did not allow us to give the awards to the non-
instructional staff, we actually found the money to do that 
because when you have this kind of wholesale reform going on in 
a school, it is because every adult is engaged in the process.
    We got tremendous feedback from the unions, from the rank-
and-file teachers, from all folks, about this program. People 
came to us and asked us whether we would continue it on for 
next year. They asked us if we could expand the program to 
include more schools. So we are working diligently with our 
union leadership right now to make sure that this program can 
grow and that we can see it next year and that we can 
ultimately get to the level where we are awarding teachers 
based on the classroom level achievements as well.
    Senator Akaka. Thank you.
    Ms. Gist, to continue along the discussion of teacher 
quality, you mentioned the OSSE is developing a teacher quality 
strategy to bring in high-quality teachers. The chancellor also 
testified that DCPS is working on hiring qualified teachers. 
Can you explain how OSSE and DCPS are working together on this?
    Ms. Gist. Yes, definitely. Our responsibility when it comes 
to teacher quality is to set the right policy conditions for 
all of our LEAs, but it particularly affects DCPS's ability to 
be able to recruit and retain the highest-quality teachers. And 
so it is not our responsibility to make those selections or to 
directly get involved with that effort but, rather, to support 
and to provide the right conditions so that DCPS can be 
successful.
    And so, for example, one of the things that we are working 
on right now, in addition to our highly qualified teacher 
definition, our teacher certification requirements right now, 
on the highly qualified teacher definition, the definition that 
we use in the District of Columbia is so much stronger than the 
requirements that are in No Child Left Behind that it actually 
prevents our schools from being able to oftentimes bring on 
people that are genuinely highly qualified; but because of the 
way that our regulation is written, it means that on paper they 
are not highly qualified, which oftentimes can result even in 
the school district not being able to fill a position, meaning 
that rather than having someone who is genuinely highly 
qualified, a classroom may end up with a permanent substitute 
for that year. And I think you would agree with me that was 
certainly not the intention of the highly qualified provision 
within No Child Left Behind.
    On teacher certification, we do not have any specific 
proposals in place right now, but what we are doing is working 
with our State Board of Education, DCPS, and many policymakers 
and other partners across the country but really certainly 
within our community, to think about what do our teacher 
certification requirements need to have in order to do two 
things: One, to make sure that we have a pool of qualified 
people that is broad enough for our schools to be able to 
choose among in a way that allows them to be very selective, 
but not limiting that pool so that their selectivity means that 
they do not come out with the quantity of teachers that they 
need because we are somehow overly restrictive on the front 
end.
    But then the second thing is also to ensure that we are 
focusing at the end of the day on teacher effectiveness. So 
frequently we talk about teacher quality, meaning requirements 
on paper or certain items that are checked on a form, when 
really what we need are effective teachers who can help our 
children to be successful.
    Senator Akaka. Well, the question I asked before and I will 
ask you, since you are talking about recruiting, what is the 
biggest challenge to attracting and retaining high-quality 
teachers and staff that you face?
    Ms. Gist. Well, I would actually defer that question to the 
chancellor with your approval, since that recruitment piece 
fits into her role.
    Senator Akaka. Chancellor Rhee.
    Ms. Rhee. What research across the country has shown is 
that one of the things that school districts can do to ensure 
that the most qualified people are matriculating into the 
District is early hiring. If you look at the teacher candidate 
pool that exists, the highest quality candidates are looking 
for jobs early, and they want to know what they are doing for 
the following year early.
    So if a district is waiting until August or September to 
fill their vacancies, they are going to undoubtedly be left 
with people who do not have other options, and typically those 
are not the most highly qualified candidates.
    So what we as a district are trying to do is ensure that we 
are setting up a process so that we can hire our teachers early 
when the best quality teachers are still available and in the 
pool. That is part of the reason why we moved as expeditiously 
as we did towards the school consolidation process, because we 
knew that if we waited until summer to have that happen, then 
all of the movement of the incumbent teachers would not happen 
until after that. Then we would not be able to place new 
teachers.
    If you look, interestingly enough, people who are 
interested in teaching in urban districts, they are not 
necessarily in it for--I mean, they know what they are getting 
into. And so what we want to do is make sure that they are 
being hired early. We also want to create the right conditions 
and the culture.
    I think we are in a very fortunate position right now as a 
city and as DCPS, in that we have gotten a tremendous amount of 
national attention on the efforts that we have going on. So we 
have been inundated with applications for all kinds of 
positions. As I said in my testimony, we have had over 500 
applications for principal positions, and they are still 
rolling in every day. We will end up hiring, I think, a maximum 
of 50 principals, probably fewer. So we are talking about at 
the very least an application to vacancy ratio of about 10:1, 
which is a position that most districts are not in. It will 
allow us to be incredibly selective about who is coming in, and 
that is exactly the position that we want to be in.
    Senator Akaka. Let me mention and suggest something here.
    Ms. Rhee. Sure.
    Senator Akaka. It is close to my heart, and I have found it 
to be very important. And you used the word, and it is what 
brought it to mind. You used the word ``culture.'' In 
education, whoever teaches in that particular school, that 
district, or that States should be aware of the culture of that 
place because through that culture you can probably reach the 
child faster and better and with good understanding and 
relationship than if they did not.
    Ms. Rhee. Absolutely.
    Senator Akaka. And I remember when I was in elementary 
school in Hawaii when we had books that talked about snow, I 
used to wonder, ``Why are we reading these books?'' But that is 
the kind of books they had in those days. But it was out of our 
culture.
    So that word you use is very important in the selection of 
those that you are looking for.
    Ms. Rhee. That is absolutely important. I think one of the 
mistakes that public education, particularly urban public 
education, has made over the last couple of decades is assuming 
that teachers or educators are interchangeable widgets and that 
you can move one from one school to the other school and it 
does not really matter, when, in fact, it matters a tremendous 
amount.
    What we need to do is make sure that as we are hiring 
people into schools, that they are a good fit for that 
particular school and for the culture, because we have schools 
across this District that have very different cultures, very 
different environments. And there are some educators that would 
work extraordinarily well in some of them, but not particularly 
well in others. So what we want to do is make sure we have a 
much more robust selection process in place where, if you do 
this early, if you can hire early, you can do this, where 
people are going out to the schools, they are doing sample 
teaching lessons actually at the schools. That is the level 
that we want to get to so that people are visiting the actual 
schools that they might be teaching or working in so that they 
can determine whether or not that is the right fit for them. 
And we can do a tremendous amount from the District side of 
educating people about the culture that they are going to enter 
into.
    Senator Akaka. Well, thank you very much for that.
    My final question will be to Ms. Ashby, but before that, 
let me ask a question of Mr. Lew. When you were last before the 
Subcommittee, the Summer Blitz program to improve school 
infrastructure targeted 70 schools at that time. Can you give 
us a status update of the number of work orders closed and the 
number of outstanding work orders there are?
    Mr. Lew. Yes. Approximately, at the time when we began this 
effort, there was about 11,000 or so outstanding work orders. 
And we learned when we went through this process that there 
were probably as many work orders that were unaccounted for, 
never submitted to the school system to execute because of the 
way work orders are handled. Many of them were never responded 
to for years. So teachers and principals and vice principals 
started basically not responding--not submitting work orders.
    We learned that oftentimes, when you go through buildings, 
when they said there were 20 lights that did not work, when you 
go through the buildings after years have gone by, there is 10 
times or double the amount of problems that existed.
    So we eliminated about 10,000 work orders, cleared about 
10,000, but during that same period we gained about another 
7,000. We added another 7,000 to the roster.
    So it is an ongoing process. We think that our effort in 
the next few months is to clear this away, to get it to the 
point where it is zero. And then at that point I think we will 
establish a new culture in terms of responding to work orders 
and treating it in a totally different manner so that we will 
then be in a position where we will have dozens and dozens of 
trade contractors already on board, retained, so when a problem 
comes up with plumbing or electrical, these contractors are 
already on board with us, and they will be assigned that school 
year to address those problems; whereas, in the past, I think 
the school system had to then go out and do a procurement and 
then they had to find the money, and it was just an impossible 
bureaucratic nightmare.
    Senator Akaka. Thank you very much.
    Ms. Ashby, you and I have heard the team and where they are 
presently, what they have done, what they have been trying to 
do, what they intend to do, their expectations, directly from 
the team. I want to praised and commend the mayor and all of 
you, the mayor in particular for his deep commitment, because 
what you have done would not have happened without the 
commitment of the mayor as well as the council and others who 
have to make these decisions. And you have carried out many 
things that had to be reformed, and you are still in the 
process of reforming.
    So, Ms. Ashby, the first GAO person who has come forth with 
a report that I requested on the DC Public School system and 
your recommendations as to what you think needs to be done, and 
based on your short-term study, do you think the progress of 
the initial management reforms made by the mayor's education 
team have established the appropriate foundation to meet their 
intended goals?
    Ms. Ashby. I do, Mr. Chairman. As I said earlier, I applaud 
their efforts. A lot has been done in a short period of time. 
We were in a situation, a crisis situation in the District of 
Columbia Public Schools, and they have tackled some of the 
critical management issues and other issues, done things that 
needed to be done and long have been needed to have been done. 
So I think they have done an outstanding job thus far.
    Of course, the real test is what happens with the children 
and their achievement levels, and that is long term. Things are 
not going to turn around overnight. We hope to see incremental 
progress, which I am encouraged that we will. But that is the 
true test. And I think also that in order to be successful, you 
are operating in a political environment, particularly in the 
District of Columbia because of the Federal role as well as the 
local culture, as we have talked about. And not to beat a dead 
horse, as they say, but to the extent that plans are 
transparent early rather than later, and to the extent that the 
people affected by the plans and the people who can put up road 
blocks can be brought into the process early at the ground 
level to help shape those plans, I think this team is going to 
be more successful.
    So I look forward to what is going to happen. I am a 
resident of the District of Columbia. I am a parent in the 
District of Columbia. And I am excited about what is going on.
    Senator Akaka. Well, Ms. Ashby, let me tell you, your 
remarks are heart-warming and encouraging as well, and we want 
to give this team all the help we can to bring about your 
expectations. And it is true, as GAO is pressing for a long-
term strategic plan, it is like a goal that we are all working 
for. And, of course, simply, it is a better educated child.
    Let me revert back to Hawaii. In Hawaii, I have the term 
``hanai keiki,'' and in the culture of Hawaii, there were no 
homeless because families took in children who did not have 
parents. They call it ``the hanai system.'' And I am so glad to 
see that our country is coming about into this hanai system 
that has been used for indigenous people, centuries ago, years 
ago. But it is something that we need to restore, and so hanai 
keiki is to take care of the children, and this is what you are 
doing. And it is really great, and I want to encourage you to 
continue to do what you are doing and to keep us informed as to 
what you are doing. And I want to wish all of you well, and 
thank you so much for coming and responding and being a part of 
the help that this Subcommittee needs.
    I should tell you we have a second panel that will follow 
you, but for now thank you so much for coming and contributing 
to this.
    We have two that will be witnesses in our second panel: 
Jane Hannaway is the Director of the Education Policy Center of 
the Urban Institute; and John Hill is the Chief Executive 
Officer of the Federal City Council. I welcome both of you to 
this hearing. I am glad you were here to hear the statements 
and the responses of our first panel.
    As you know, our Subcommittee requires that all witnesses 
testify under oath; therefore, I ask you to stand and take the 
oath. Do you swear that the testimony you are about to give the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Hannaway. I do.
    Mr. Hill. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that our witnesses answered in the affirmative.
    Again, I welcome our second panel. Before we begin, I want 
you to know that although your oral statement is limited to 5 
minutes, your full written statement will be included in the 
record.
    So, Dr. Hannaway, please proceed with your statement.

   TESTIMONY OF JANE HANNAWAY, PH.D.,\1\ DIRECTOR, EDUCATION 
                 POLICY CENTER, URBAN INSTITUTE

    Ms. Hannaway. Thank you, Mr. Chairman, for inviting me to 
comment on school reform in the District of Columbia. I am 
happy to share my thoughts, not only as a researcher who has 
been analyzing education reforms across the country for almost 
three decades, but also as a resident of the District of 
Columbia. I should make clear that the views I am expressing 
here are my own and should not be attributed to the Urban 
Institute, its trustees, or its funders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hannaway appears in the Appendix 
on page 95.
---------------------------------------------------------------------------
    I agree with something you said earlier: Mayor Fenty should 
be applauded for his willingness to take responsibility for the 
schools and to provide a direct line of accountability.
    But success in schools will take more than governance 
changes. Reforms, including accountability close to the 
classroom, I think are necessary for better student learning.
    I work to stress two areas in my comments. The first is 
teacher quality and the second is data systems--both topics 
that came up with the earlier panel. I see these two areas as 
closely related in basic and practical ways, as I will explain.
    I lead a national research center at the Urban Institute 
called CALDER. CALDER is a federally funded research center. It 
stands for National Center for the Analysis of Longitudinal 
Data in Education Research--a mouthful. We use administrative 
data such as the type that Superintendent Gist was discussing 
this morning. We use administrative data in a number of States, 
including North Carolina, Florida, Texas, and New York, where 
we have data at the individual student level, performance on 
individual students over a number of years, and are able to 
link students with their individual teachers. So it is a 
tremendously large and tremendously rich database that gives us 
insight into schools that we have never had before.
    The findings emerging on teacher effectiveness are indeed 
stunning. While I think parents, principals, and other teachers 
have all known that teachers are important, it is the variation 
across teachers in effectiveness that has been stunning. And we 
are finding this across States, so this is not a one-State 
finding. I think this is something pretty basic.
    The most effective teachers, just to give you some idea, 
those in the top 15 percentile, are getting about a year and a 
half gain per student on tested performance. Those in the 
bottom 15 percentile are getting about a half a year gain. Now, 
you can imagine how this cumulates over time and the 
consequences for a child of having one of these excellent 
teachers for a number of years in a row, and the consequences 
of having one of these poor teachers for a number of years in a 
row. One study, one of our studies, has shown that if 
disadvantaged students had these excellent teachers for 5 years 
in a row, we could essentially close the achievement gap. So 
these are very important findings.
    The difficult tasks, therefore, for the District of 
Columbia policymakers and education administrators are: One, 
how to get more high-performing teachers in the classroom 
(especially in classrooms serving disadvantaged students); 
second, how to hold teachers and schools accountable for 
student performance; and, third, and importantly, how to do it 
fairly.
    Now, the answers, I argue, are heavily dependent on good 
data systems. A big problem in education right now is that the 
standard measures of teacher quality that are built into our 
current hiring practices and pay schedules--such as 
certification status, years of experience--except for the first 
couple years--and master's degrees--unless it is in the subject 
area that you are teaching--do not distinguish more and less 
effective teachers.
    Many efforts are underway. I think some of them were talked 
about here as plans in the District of Columbia. There are also 
a number of efforts underway across the country in various 
school districts and States to try to rethink how we identify, 
select, train, assign, and reward teachers.
    Implementing teacher effectiveness reforms, however, cannot 
be implemented on a wish and a prayer or on a hunch. It is not 
fair to school professionals and, most importantly, it is not 
fair to students. Reforms that promote teacher effectiveness 
should be undertaken, but they should be guided by sound data 
systems so that good judgments can be made.
    The important effort underway that Deborah Gist talked 
about this morning, the superintendent, is a $25 million 
investment by OSSE, by the Office of the State Superintendent, 
to develop a longitudinal administrative data system here in 
the District that would track students over time, that would 
link students with their teachers. I have been serving on the 
panel reviewing proposals to develop this system. We have just 
finished our initial review, and I am very hopeful about the 
quality of the data system that will develop. Administrative 
data systems cannot tell you everything, but they can tell you 
a lot.
    Let me go to six specific recommendations that I might 
make, and this is all based on research findings.
    First, the District should be open to teacher candidates 
coming with non-traditional teacher training backgrounds, such 
as the New Teacher Project that Chancellor Rhee led and 
founded, and Teach for America, as well as talented individuals 
in areas of shortage, such as math and science.
    Second, to provide an intensive orientation and support 
structure, including feedback on the performance that teachers 
are getting from their students, for all teachers, regardless 
of background, for at least 2 years. We know that in those 
first 2 years, teachers become more effective. It tends to 
level off after that, but those first few years in the 
classroom are very rich times for learning, and we should have 
support for teachers at that point.
    We should develop school, principal, and teacher 
performance incentive programs based on student learning gains, 
and I would stress gains.
    We should develop differentiated pay schedules to attract 
the best teachers to the most challenging schools and talented 
individuals in shortage areas. Right now across this country, 
what we see is that there is a flow. When school districts hire 
teachers, they tend to be assigned more often than not to the 
most challenging schools, and they tend to leave. And when they 
leave, they go to the less challenging schools, leaving the 
toughest schools with continuing churning of new teachers. If 
we pay teachers more to be in these tougher assignments, we may 
be able to retain more there.
    Another recommendation I would make is move the tenure 
decision out to 5 years. In the District right now, I believe 
it is 2 years. I think with this new performance information 
coming online, we should make tenure decisions at a later 
period where we have more information about teacher 
effectiveness.
    This may sound self-serving, but I do believe we should 
encourage the involvement of objective professional research 
analysts to use these databases and to compare findings with 
other jurisdictions. To ensure their best use, the data should 
also--and this is important--be protected from an overly 
conservative interpretation of FERPA, which has retarded 
effective research in some States.
    So, in summary, when it comes to K-12 education, the 
research is showing it is largely about teachers, teachers, 
teachers. The recommendations I offered need much detail before 
they can be implemented, but I think the important thing right 
now is a commitment to improve teacher performance and to let 
decisions be guided by objective information about what works.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Dr. Hannaway.
    Mr. Hill, your statement, please.

TESTIMONY OF JOHN W. HILL,\1\ CHIEF EXECUTIVE OFFICER, FEDERAL 
                          CITY COUNCIL

    Mr. Hill. Good afternoon, Chairman Akaka. I am John Hill, 
the Chief Executive Officer of the Federal City Council. The 
Federal City Council is a nonprofit organization comprised of 
about 250 business and civic leaders in the District of 
Columbia and focused on creating strong partnerships between 
the business community and the District for the benefit of 
District residents. I thank you for the opportunity to testify 
today regarding the performance of the DC Public Schools.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hill appears in the Appendix on 
page 100.
---------------------------------------------------------------------------
    The Federal City Council was created over 50 years as a way 
for the business community to be a partner in the civic 
progress of the District of Columbia. Since then, we have 
embraced a number of complex and challenging projects aimed at 
revitalizing downtown, providing affordable housing, improving 
public safety, and strengthening neighborhoods. Over time, it 
has become clear that the District's future success depends on 
the health and the well-being of its public education system. 
For this reason, public education reform has been a top 
priority of ours for many years.
    Twenty years ago, we attempted to provide a catalyst for 
change through the formation of the Committee on Public 
Education. This was done at the request of the DC Board of 
Education, the superintendent, and in partnership with the DC 
Council and the mayor. What we saw then mirrors what we see 
now. COPE brought together civic leaders, business leaders, 
educational institutions, and national experts to recommend a 
path forward for education reform. The resulting 
recommendations spanned many areas ranging from modernizing 
facilities, reducing administrative overhead, streamlining the 
central office, upgrading principal and teacher quality, 
providing teacher training and merit pay, strengthening 
reading, writing, math, and science programs; expanding the use 
of technology, and supporting at-risk children as early as age 
3.
    At the time, COPE helped to establish a broad base of 
support for school reform, but due to the dire financial 
conditions of the District that developed in the early 1990s, 
the school system never followed through. Since then, our 
members have remained interested in education reform, although 
some of the momentum had shifted in the late 1990s toward the 
development of what is now a strong charter school presence in 
the District of Columbia.
    Last year, we once again became very optimistic about 
public education reform when Mayor Adrian Fenty made education 
his top priority. We are strong supporters of his effort to 
gain responsibility for education, and we helped raise funds 
for this initiative. We are encouraged by the window of 
opportunity that has opened for the District to produce real 
and lasting school reform.
    Since the mayor gained control over education, he and his 
leadership team have moved quickly to try to improve the 
system. Victor Reinoso, Deborah Gist, Allen Lew, and Chancellor 
Rhee have all brought a sense of urgency and action to the work 
before them.
    Over the past year, we have seen bold moves to hold 
employees accountable, streamline central administration, and 
close underutilized schools. Problems of accountability, red 
tape, and poor management of resources have always plagued the 
system, but it took the mayor and his leadership team to decide 
and to execute a course of action. We applaud these efforts and 
feel that there is a strong momentum to help make the difficult 
decisions necessary to advance the interests of the school 
children. Based on the above, we really judge the first phase 
of this reform effort a success.
    It is too early to judge the ultimate success of school 
reform because there is a long road ahead. We have heard 
criticism that has been aimed at the mayor and his leadership 
team for not communicating a grand vision or a comprehensive 
strategic plan for school reform. Our view is that you cannot 
develop a reasonable and sustainable plan without completing 
some of this fundamental work that is currently underway, 
including accurate accounting for every public dollar that is 
currently spent by the school system, assessing the platforms 
that support personnel, procurement, financial management, and 
technology that is needed to support this long-term reform; 
evaluating the quality of our workforce and developing ways to 
encourage excellence, support improvement, and eliminate 
incompetency; promoting and recruiting the managerial and 
educational talent that is needed to ensure the capacity for 
reform; and fixing school facilities so that our students do 
not have to really strive to learn in environments of neglect, 
decay, and filth.
    These are not visionary or strategic planning elements. 
These are basic functional needs of any organization, and these 
elements become the nuts and bolts of reform. In the past, the 
District has been known for its tendency to plan and plan. What 
we need today is to execute on all of the planning work that 
has been done to date and to focus on building up the essential 
infrastructure for reform that is necessary for long-term 
success.
    These basic steps we have seen will stir controversy 
amongst those who are benefiting from the broken system that we 
have today, but these steps must be taken. The Federal City 
Council is focused on the long term. We, too, are interested in 
understanding what the classroom of the future will look like 
in the District of Columbia. We want to hear more about arts 
and athletic programs. However, we are under no illusion about 
the hard work that must be done before we can have a fruitful 
conversation about that future.
    Today, difficult decisions are going to be required to 
overcome decades of neglect. Additional resources may be needed 
to overhaul the system's broken infrastructure, and there will 
be more opposition from the forces of the status quo as we move 
ahead.
    Over the next year, we look forward to the chancellor 
finally operating with the full complement of motivated and 
talented staff, which will enable her to keep focus on the 
classroom without compromising the administrative work that 
needs to be done.
    We look forward to the development of a budget that begins 
with the needs of students and builds up from there. We will 
look forward to the improvements in basic education and 
business systems and the processes that underlie what happens 
in the school system.
    Finally, we look forward to a new focus on principal and 
teacher accountability that promotes and rewards those who 
perform well and removes from our classrooms those who are not 
serving our students well.
    On behalf of the Federal City Council, I am here to let you 
know that our organization supports the reform efforts that are 
underway, that we expect these first years to be among the most 
difficult, and that we are prepared--and we know that you are 
as well--to fortify these reform efforts to be partners in 
helping improve education for the District's children because 
they deserve no less. Thank you for the opportunity to testify 
today.
    Senator Akaka. Thank you very much, Mr. Hill.
    To both of you, as you have heard, GAO's central 
recommendation is for the development of a long-term systemwide 
strategic plan. Based on your perspective, what do you think 
about GAO's recommendation? And what do you think about Deputy 
Mayor Reinoso's response? Dr. Hannaway.
    Ms. Hannaway. I think strategic plans, long-term strategic 
plans, are clearly a good thing. The problem is when they 
become inflexible. And I think part of the discussion among the 
individuals on the earlier panel had to do with what is short 
term and what is long term and how can this organization, this 
District, organize itself so that it really becomes a learning 
organization itself. If we knew what the best plan was, if we 
knew how to put all the pieces in place right now, we should 
just do it. I do not think anyone would claim that we know what 
all the pieces are and how all the pieces will work together.
    So what we have to ensure, I think, is that we have a 
system where there is objective information, feedback, where 
there is a system in which all the players are working 
together, and where there is a system that is flexible and 
adaptable and can learn as new problems arise and as successes 
unfold.
    Senator Akaka. Thank you. Mr. Hill.
    Mr. Hill. Yes, I would definitely agree with Dr. Hannaway's 
comments. I would also say that I spent 10 years of my 
professional career with GAO, and part of that was actually 
reviewing the District of Columbia finances just before the 
creation of the Control Board. And I do understand GAO's 
recommendation, and I certainly agree and understand the 
importance of strategic planning.
    I believe that strategic plans work best when they are 
developed and also put in cultures of action and cultures of 
reform. The current culture within the District of Columbia, 
and certainly within the DC Public School system when this 
mayor took over, was not a culture of action, and it certainly 
was not a culture of reform. It was a culture of stagnation, it 
was a culture of fingerpointing, and not a culture of 
accountability.
    I think when you have that in place initially, it is very 
difficult, if not impossible, to develop a strategic plan that 
can be acted upon, because the people who would help to develop 
that and to ultimately implement that are not in place to 
really understand the importance of action.
    And so I agree that it is a matter of timing. I agree with 
the actions that are being taken now to change that culture, 
and that once that culture is changed and on the road to 
improvement, then would be the appropriate time to really work 
on a strategic plan that could be acted upon and implemented.
    Senator Akaka. Thank you.
    Dr. Hannaway, one of the recommendations in your testimony 
is for DCPS to take teachers with non-traditional backgrounds, 
but teachers with non-traditional backgrounds might not have 
the required certifications. How do you propose DCPS ensure 
that non-traditional teachers meet OSSE's rigorous quality 
standards?
    Ms. Hannaway. Well, as I understand it from part of the 
testimony this morning, some of what the certification 
standards are are being re-thought in OSSE. This is something 
that school districts across the country are struggling with. 
What we know is that certification, as it is now defined in 
most places, is not associated with effective teaching. So the 
question is how we go about selecting teachers.
    We have just completed some research on Teach for America 
that shows very promising results for Teach for America. These 
are individuals coming in without traditional teacher training 
programs; however, they do get certified in order to comply 
with No Child Left Behind. The hoops that you have to go 
through to do that are not necessarily the hoops that lead them 
to be more effective. I think this is a wide open area. I think 
the District should experiment with identifying talented 
people, follow their performance carefully, build in support 
systems in case someone has made a wrong bet.
    One thing that is striking in education, Mr. Chairman, is 
that there is very little hierarchy, so a teacher who is a 
first-year teacher in a school district is treated the same way 
that a 30-year veteran is treated. Each goes to their own 
classroom and closes the door. That does not make a lot of 
sense.
    So you can imagine if the district were to experiment with 
teachers coming in in different routes that there may be 
mechanisms--and it is one of the reasons I put in the 
recommendation that all teachers, regardless of their 
background, should be receiving ongoing support, ongoing 
monitoring by more experienced and talented and shown-to-be-
effective teachers, and they should be getting and their 
principals should be getting information back on their 
effectiveness.
    How to switch to a new system is not yet clear, and a 
number of school districts are experimenting with this. But 
what we know right now is that the certification requirements 
for the most part that are required are not qualifications that 
appear to be associated with teachers being more or less 
effectiveness.
    So I do not have the solution. I have a better handle on 
the problem, and I think the solution will come from some 
experimentation.
    Senator Akaka. Well, Dr. Hannaway, what recommendations 
would you have for the OSSE in developing standards for high-
quality teachers?
    Ms. Hannaway. I would start by differentiating the teaching 
labor force. Right now, as I said, it is one standard. You are 
either certified or not certified. And as soon as you get 
certified, you are pretty much on your own and assumed to be 
effective. And we know that is not the case.
    So one can imagine having a differentiated teaching 
workforce whereby for the first year, maybe for the first 2 
years, you do not have a classroom by yourself, that you are 
under closer supervision, that you get certification partly on 
the job on the basis of your performance as opposed to on 
checklists of qualifications that are achieved prior to your 
being in the classroom.
    So I would put down the line some of these decisions rather 
than trying to lock them in on the basis of what we know is 
imperfect information at the start.
    Senator Akaka. Thank you.
    Mr. Hill, in your testimony you recommend that a 
partnership between the community and the District Government 
must exist in order for the school system reform to be 
successful. How do you envision this partnership taking shape? 
And who do you see as the key players on the community side of 
the partnership?
    Mr. Hill. I do think that the partnership is taking place. 
I believe some of the key players are certainly the people who 
are really benefiting and using the education system. Our 
view--and it was certainly borne out through the work that was 
done through the COPE report--is that the issue of education is 
really one that needs to involve parents, that needs to involve 
students, that also needs to involve community leaders at all 
levels, as well as the business community.
    Our role in the partnership is to help to provide business 
expertise to solve business-level problems within the school 
system. We do not pretend to be educators because, for the most 
part, we are not, and we realize that is a specialized area. 
However, supporting the school system and supporting the 
educational process is an important part of the reform that 
needs to take place. And so our members who really sit on top 
of multinational companies, as well as large companies within 
the District of Columbia, volunteer time and effort in helping 
to pull together strategies as well as resources so that the 
school system can meet the needs of the students.
    During my time at ``In2Books''--I was CEO of a nonprofit 
that was working with the District on improving literacy and 
teacher training around literacy, and one of the things that we 
found in terms of teacher training was that some of the 
teachers that really came out of educational programs in major 
universities were not really aware of some of the latest 
research that had been done on how children learn to read and 
the brain research about how students are stimulated in terms 
of reading. We believe that the ability to read was one of the 
fundamental predictors of a child's success in later years in 
school.
    And so in addition to bringing people in with alternative 
backgrounds into the teaching pool, I think there also needs to 
be a look at what is happening in education programs that are 
getting teachers ready around the country to make sure they 
reflect some of the latest thinking and latest research around 
how students learn to read.
    Senator Akaka. Dr. Hannaway, under the No Child Left Behind 
Act, schools are not given--and this is what is so important, 
and I know you know this is important. Schools are not given 
much flexibility in the measurements required to assess school 
accountability and teacher effectiveness. In dealing with 
underserved populations who may need non-traditional styles of 
teaching, do you see these requirements as an impediment to 
measuring teacher effectiveness?
    Ms. Hannaway. I think you are asking two questions. Just 
let me make sure I understand. One was about the way schools 
are evaluated with No Child Left Behind, and the other how they 
qualify the teachers. I think there has been some flexibility 
now at the department. Not making adequate yearly progress was 
based on proficiency levels. It was not based on gains. In one 
study I did, I compared the Florida accountability system, 
which was based on gains that schools were making, that 
individual students were making, and the No Child Left Behind 
assigning of not making adequate progress. And I cannot 
remember the exact numbers, but it was two diametrically 
different systems, where a very large fraction of the schools 
in Florida that were--and I can get you the paper on this, 
Senator, if you are interested--graded as A by the State 
system, which was rewarding schools for making a difference, 
for making gains, were not making adequate yearly progress 
according to the Federal designation.
    So a real issue with No Child Left Behind is how schools 
are designated as making adequate progress or not making 
adequate yearly progress, and it makes a big difference how 
that is done. When you actually look at gains of individual 
students, you can see a very different picture than when you 
just look at proficiency levels.
    Let me give you an example. You can imagine a school in the 
District of Columbia where students on average had increased 
their reading levels by, say, a grade and a half, which is very 
large to get that grade and a half. But, still, only 60 percent 
or 40 percent of the students were hitting the proficiency 
target that had been specified. These are artificial targets 
because it is assumed that all children will meet full 
proficiency by 2012. So they are artificial targets.
    So rather than rewarding the school where we are seeing 
real gains in student reading, we are saying you are not making 
adequate progress because you haven't hit this proficiency 
mark, which I would argue is somewhat arbitrarily defined.
    But I think that is becoming clearer and clearer to 
policymakers, and I think there are some shifts going on now in 
the Department of Education allowing States to use gain models 
as opposed to levels.
    When you look at highly qualified teachers, the highly 
qualified teacher provisions are basically the State provisions 
for certification, and those we know are not the factors that 
seem to distinguish highly effective and ineffective teachers. 
That does not mean that we have to throw everything out, but I 
think we have to get a lot closer picture of what it is that 
makes a difference. I think we may have to be a lot tougher in 
terms of who gets certified. I would do it partly on the basis 
of actual performance that we are able to see. And I think we 
probably have to be a lot tougher in terms of who actually gets 
tenure. And that may result in some changes in the whole pay 
schedule associated with teachers and teaching.
    Senator Akaka. Well, I really appreciate your deep 
understanding out of your research of these matters and also, 
Mr. Hill, on your relationships of supportive partnerships to 
the education program, and this will be helpful to the 
Subcommittee.
    I want to thank you for coming and being with us today and 
for your dedication and your commitment to reforming DC's 
public schools and its education system. There has been 
significant progress made and, indeed, some great results. So I 
am pleased to hear about the strategic plans being developed 
and used by DCPS, OSSE, and the Facilities Office in this 
transformational year. I think the entire system will do well 
to have a long-term strategic plan for the reforms; however, 
they need a base to put that on, and I think they are quickly 
shaping that base. I hope the reforms bring more than 
management changes. They need to improve the way the children 
of the Nation's capital are educated. And so I thank you again 
for your contribution in this respect.
    The hearing record will remain open for one week for any 
additional statements or questions that Members may have. This 
hearing is adjourned.
    [Whereupon, at 12:31 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 41459.001

[GRAPHIC] [TIFF OMITTED] 41459.002

[GRAPHIC] [TIFF OMITTED] 41459.003

[GRAPHIC] [TIFF OMITTED] 41459.004

[GRAPHIC] [TIFF OMITTED] 41459.005

[GRAPHIC] [TIFF OMITTED] 41459.006

[GRAPHIC] [TIFF OMITTED] 41459.007

[GRAPHIC] [TIFF OMITTED] 41459.008

[GRAPHIC] [TIFF OMITTED] 41459.009

[GRAPHIC] [TIFF OMITTED] 41459.010

[GRAPHIC] [TIFF OMITTED] 41459.011

[GRAPHIC] [TIFF OMITTED] 41459.012

[GRAPHIC] [TIFF OMITTED] 41459.013

[GRAPHIC] [TIFF OMITTED] 41459.014

[GRAPHIC] [TIFF OMITTED] 41459.015

[GRAPHIC] [TIFF OMITTED] 41459.016

[GRAPHIC] [TIFF OMITTED] 41459.017

[GRAPHIC] [TIFF OMITTED] 41459.018

[GRAPHIC] [TIFF OMITTED] 41459.019

[GRAPHIC] [TIFF OMITTED] 41459.020

[GRAPHIC] [TIFF OMITTED] 41459.021

[GRAPHIC] [TIFF OMITTED] 41459.022

[GRAPHIC] [TIFF OMITTED] 41459.023

[GRAPHIC] [TIFF OMITTED] 41459.024

[GRAPHIC] [TIFF OMITTED] 41459.025

[GRAPHIC] [TIFF OMITTED] 41459.026

[GRAPHIC] [TIFF OMITTED] 41459.027

[GRAPHIC] [TIFF OMITTED] 41459.028

[GRAPHIC] [TIFF OMITTED] 41459.029

[GRAPHIC] [TIFF OMITTED] 41459.030

[GRAPHIC] [TIFF OMITTED] 41459.031

[GRAPHIC] [TIFF OMITTED] 41459.032

[GRAPHIC] [TIFF OMITTED] 41459.033

[GRAPHIC] [TIFF OMITTED] 41459.034

[GRAPHIC] [TIFF OMITTED] 41459.035

[GRAPHIC] [TIFF OMITTED] 41459.036

[GRAPHIC] [TIFF OMITTED] 41459.037

[GRAPHIC] [TIFF OMITTED] 41459.038

[GRAPHIC] [TIFF OMITTED] 41459.039

[GRAPHIC] [TIFF OMITTED] 41459.040

[GRAPHIC] [TIFF OMITTED] 41459.041

[GRAPHIC] [TIFF OMITTED] 41459.042

[GRAPHIC] [TIFF OMITTED] 41459.043

[GRAPHIC] [TIFF OMITTED] 41459.044

[GRAPHIC] [TIFF OMITTED] 41459.045

[GRAPHIC] [TIFF OMITTED] 41459.046

[GRAPHIC] [TIFF OMITTED] 41459.047

[GRAPHIC] [TIFF OMITTED] 41459.048

[GRAPHIC] [TIFF OMITTED] 41459.049

[GRAPHIC] [TIFF OMITTED] 41459.050

[GRAPHIC] [TIFF OMITTED] 41459.051

[GRAPHIC] [TIFF OMITTED] 41459.052

[GRAPHIC] [TIFF OMITTED] 41459.053

[GRAPHIC] [TIFF OMITTED] 41459.054

[GRAPHIC] [TIFF OMITTED] 41459.055

[GRAPHIC] [TIFF OMITTED] 41459.056

[GRAPHIC] [TIFF OMITTED] 41459.057

[GRAPHIC] [TIFF OMITTED] 41459.058

[GRAPHIC] [TIFF OMITTED] 41459.059

[GRAPHIC] [TIFF OMITTED] 41459.060

[GRAPHIC] [TIFF OMITTED] 41459.061

[GRAPHIC] [TIFF OMITTED] 41459.062

[GRAPHIC] [TIFF OMITTED] 41459.063

[GRAPHIC] [TIFF OMITTED] 41459.064

[GRAPHIC] [TIFF OMITTED] 41459.065

[GRAPHIC] [TIFF OMITTED] 41459.066

[GRAPHIC] [TIFF OMITTED] 41459.067

[GRAPHIC] [TIFF OMITTED] 41459.068

[GRAPHIC] [TIFF OMITTED] 41459.069

[GRAPHIC] [TIFF OMITTED] 41459.070

[GRAPHIC] [TIFF OMITTED] 41459.071

[GRAPHIC] [TIFF OMITTED] 41459.072

[GRAPHIC] [TIFF OMITTED] 41459.073

[GRAPHIC] [TIFF OMITTED] 41459.074

[GRAPHIC] [TIFF OMITTED] 41459.075

[GRAPHIC] [TIFF OMITTED] 41459.076

[GRAPHIC] [TIFF OMITTED] 41459.077

[GRAPHIC] [TIFF OMITTED] 41459.078

[GRAPHIC] [TIFF OMITTED] 41459.079

[GRAPHIC] [TIFF OMITTED] 41459.080

[GRAPHIC] [TIFF OMITTED] 41459.081

[GRAPHIC] [TIFF OMITTED] 41459.082

[GRAPHIC] [TIFF OMITTED] 41459.083

[GRAPHIC] [TIFF OMITTED] 41459.084

[GRAPHIC] [TIFF OMITTED] 41459.085

[GRAPHIC] [TIFF OMITTED] 41459.086

[GRAPHIC] [TIFF OMITTED] 41459.087

[GRAPHIC] [TIFF OMITTED] 41459.088

[GRAPHIC] [TIFF OMITTED] 41459.089

[GRAPHIC] [TIFF OMITTED] 41459.090

[GRAPHIC] [TIFF OMITTED] 41459.091

[GRAPHIC] [TIFF OMITTED] 41459.092

                                 <all>

</pre></body></html>
